<html>
<title> - IMPLEMENTING THE 21ST CENTURY CURES ACT: MAKING ELECTRONIC HEALTH INFORMATION AVAILABLE TO PATIENTS AND PROVIDERS, PART II</title>
<body><pre>[Senate Hearing 116-434]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-434

                     IMPLEMENTING THE 21ST CENTURY
                      CURES ACT: MAKING ELECTRONIC
                      HEALTH INFORMATION AVAILABLE
                   TO PATIENTS AND PROVIDERS, PART II

=======================================================================

                                HEARING

                                OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                                   ON

 EXAMINING IMPLEMENTING THE 21ST CENTURY CURES ACT, FOCUSING ON MAKING 
   ELECTRONIC HEALTH INFORMATION AVAILABLE TO PATIENTS AND PROVIDERS

                               __________

                              MAY 7, 2019

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions
                                
                                
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                


        Available via the World Wide Web: http://www.govinfo.gov
        
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-396 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
       
        
          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS
	  
	                    LAMAR ALEXANDER, Tennessee, Chairman
  MICHAEL B. ENZI, Wyoming		PATTY MURRAY, Washington
  RICHARD BURR, North Carolina		BERNARD SANDERS (I), Vermont
  JOHNNY ISAKSON, Georgia			ROBERT P. CASEY, JR., Pennsylvania
  RAND PAUL, Kentucky			TAMMY BALDWIN, Wisconsin
  SUSAN M. COLLINS, Maine			CHRISTOPHER S. MURPHY, Connecticut
  BILL CASSIDY, M.D., Louisiana		ELIZABETH WARREN, Massachusetts
  PAT ROBERTS, Kansas			TIM KAINE, Virginia
  LISA MURKOWSKI, Alaska			MARGARET WOOD HASSAN, New Hampshire
  TIM SCOTT, South Carolina		TINA SMITH, Minnesota
  MITT ROMNEY, Utah			DOUG JONES, Alabama
  MIKE BRAUN, Indiana			JACKY ROSEN, Nevada


		 David P. Cleary, Republican Staff Director
	   Lindsey Ward Seidman, Republican Deputy Staff Director
		    Evan Schatz, Minority Staff Director
      John Righter, Minority Deputy Staff Director

                           
                           C O N T E N T S

                              ----------                              

                               STATEMENTS

                          TUESDAY, MAY 7, 2019

                                                                   Page

                           Committee Members

Alexander, Hon. Lamar, Chairman, Committee on Health, Education, 
  Labor, and Pensions, Opening statement.........................     1
Murray, Hon. Patty, Ranking Member, a U.S. Senator from the State 
  of Washington, Opening statement...............................     4

                               Witnesses

Rucker, Don, M.D., National Coordinator for Health Information 
  Technology, Office of the National Coordinator for Health 
  Information Technology, United States Department of Health and 
  Human Services, Washington, DC.................................     6
    Prepared statement...........................................     7
    Summary statement............................................    12
Goodrich, Kate, M.D., Director and Center for Medicare and 
  Medicaid Services Chief Medical Officer, Center for Clinical 
  Standards and Quality, Center for Medicare and Medicaid 
  Services, United States Department of Health and Human 
  Services, Washington, DC.......................................    13
    Prepared statement...........................................    15
    Summary statement............................................    19

 
                     IMPLEMENTING THE 21ST CENTURY
                      CURES ACT: MAKING ELECTRONIC
                      HEALTH INFORMATION AVAILABLE
                   TO PATIENTS AND PROVIDERS, PART II

                              ----------                              


                          Tuesday, May 7, 2019

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m., in 
Room SD-430, Dirksen Senate Office Building, Hon. Lamar 
Alexander, Chairman of the Committee, presiding.
    Present: Senators Alexander [presiding], Burr, Cassidy, 
Romney, Braun, Murray, Casey, Baldwin, Murphy, Kaine, Hassan, 
Jones, and Rosen.

                 OPENING STATEMENT OF SENATOR ALEXANDER

    The Chairman. The Committee on Health, Education, Labor, 
and Pensions will please come to order. Senator Murray and I 
will each have an opening statement, then we will introduce the 
witnesses, and after that, Senators will each have five minutes 
of questions.
    Let me just--let me say at the beginning, what I may repeat 
both in my statement and questions, my major concern is to 
remind the administration of the advice that my piano teacher 
used to give me before a recital. She would say, Lamar, play it 
a little slower than you can play it. You are less likely to 
make a mistake. And that is pretty good advice, and as I look 
back at our experience with Meaningful Use 3 and the large 
amount of data that we are dealing with here, in summary my 
view is that you are on a good track. Both in the Obama and the 
Trump administrations, you have worked hard to try to get on 
the right track here and implement the 21st Century Cures law 
that we passed. That I appreciate very much, and I appreciate 
the extension of time for a comment period.
    But I want to say to Senator Murray and other Senators who 
are here that over the next two years we may want to continue 
to have, in an informal way, discussions with you about how we 
are doing, and I think it is much better for you to have on 
your tombstone, they got us where they wanted us to go instead 
of they try to go too fast and made it difficult for us. So we 
will say more about that. In 1991 the National Academies urged 
the adoption of electronic health records to improve patients' 
care. However, for many patients and many doctors, electronic 
health records made care more complicated.
    No one knows this better than Dr. Kelly Aldrich who is the 
Chief Clinical Transformation Officer at the Center for Medical 
Interoperability in Nashville and whose husband Eric 
experienced a life-threatening emergency that could have been 
prevented if his electronic health records had been 
interoperable. Eric woke up one morning with a splitting 
headache. He went to see his primary care doctor. He sent Eric 
to the hospital for a CT scan. The results of that prompted an 
MRI. Usually the hospital's electronic medical records sends 
the results of the MRI directly to Eric's primary care doctor 
but in this case, the results were never sent so 12 hours after 
test, Eric's doctor called the hospital and learned that Eric 
had a tumor so large it was causing his brain to swell and 
shift, putting him at risk of seizures, permanent brain damage, 
and possibly death. Eric, however, assuming no news was good 
news was already 500 miles away on a fishing trip to Louisiana. 
Eric went to the Tulane Medical Center, which had to do another 
MRI because they could not obtain Eric's original test results 
because the two hospitals use different electronic medical 
record systems. Eric flew back to Nashville where he had to 
have yet another MRI before entering surgery. He spent several 
weeks recovering in the ICU.
    At multiple points during this traumatic experience, the 
lack of interoperability between electronic health care records 
caused a life-threatening delay of care, redundant tests, 
higher costs, and additional pain. This is the second hearing 
on the proposed rules implementing the Electronic Health 
Information Provisions in the 21st Century Cures Act. Improving 
electronic health records is important to this Committee on 
both sides of the aisle. In 2015 while working on Cures, we 
realized that our electronic health record system was in a 
ditch.
    The Committee held six bipartisan hearings in the midst of 
the 21st Century Cures discussions on how to improve 
interoperability and form a working group that recommended 
provisions in Cures to ban information blocking, which is when 
some obstacle is in the way of a patient's information being 
sent from one doctor to another. And this year the Committee is 
working on legislation to lower the cost of healthcare. 50 
percent of what we spend on healthcare is unnecessary, 
according to Dr. Brent James of the National Academies. 
Electronic health records that are interoperable can prevent 
duplicative services, like Eric's repeated MRIs, and reduce 
what doctors and hospitals spend on administrative tasks.
    In March, the Office of the National Coordinator in the 
Center for Medicare and Medicaid Services issued two rules to 
implement the electronic health records provisions in the 21st 
Century Cures Act. First, the rules to define information 
blocking so it is more precisely clear what we mean when one 
system, hospital, doctor, vendor, or insurer is purposefully 
not sharing information with another. Second, the rules require 
that by January 1, 2020, for the first time, insurers must 
share a patient's health care data with a patient, so their 
health information follows them as they see different doctors.
    Third, all electronic health records, and there might be an 
example of going too fast. This rule may not be final until the 
end of this year, then this information must be shared by 
January of next year. Fourth, all electronic health records 
must adopt publicly available standards for data elements known 
as application programming interfaces are APIs--we will hear a 
lot about APIs today--two years after these rules are 
completed. Last month, we heard from those who use electronic 
health records. So here is what they had to say.
    First, I ask our witnesses at that hearing if these were 
good rules and all four said, yes, the intent and the goal of 
the rules is correct. Mary Greeley, President of Healthcare 
Leadership Council said, ``interoperability is not simply 
desirable, it is absolutely necessary. These rules represent an 
important and perhaps groundbreaking first step for true, 
national interoperability.'' Also asked our witnesses what one 
change they would make to improve the rules and Dr. Greeley 
cautioned about not rushing implementation saying, ``we don't 
want to prevent moving ahead or progress, but I think we also 
have to be very cognizant of the challenges that providers and 
others are facing trying to do this complex work.''
    In 2015, I urged the Obama administration to slow down 
stage 3 of Meaningful Use, which incentivize doctors and 
hospitals to adopt electronic health care records. The 
administration then did not slow down implementation and 
looking back, the results would have been better if it had. The 
best way to get where you want to go is not by going too far 
too fast. I want to make sure we learned lessons from 
implementing Meaning Use stage 3, which in the words of one 
major hospital in Tennessee was, terrifying.
    I am especially interested in getting where we want to go 
with the involvement of doctors, hospitals, vendors, 
insurances, with the fewest possible mistakes and the least 
confusion. We do not need to set a record time to get there 
with an unrealistic timeline. Because these are complex rules, 
I asked CMS and ONC to extend the comment period. I am glad to 
see they have done so, and I want to thank our witnesses for 
allowing more time to comment. We also heard concerns about 
ensuring patient privacy. If the 21st Century Cures Act is 
successfully implemented, patients should be able to get their 
own health data more easily and send it to their own healthcare 
providers. Patients may also choose to send that data to third 
parties like an exercise tracking app on their smartphones, but 
this raises some new questions about privacy and questions I am 
not sure have been answered.
    Lucia Savage, Chief Privacy and Regulatory Officer at Omada 
Health said, ``I think the Committee is rightfully concerned 
about privacy and security. None of this will matter if the 
consumers don't have confidence and their doctors don't have 
confidence that the consumers have confidence.'' Dr. 
Christopher Rehm, Chief Medical Informatics Officer at 
LifePoint Health in Brentwood, Tennessee reminded us at the 
hearing that these rules are, ``not about the technology, it is 
about the patient, their care, and their outcomes.''
    I look forward to hearing from the administration today 
about how they plan to implement these rules.
    Senator Murray.

                  OPENING STATEMENT OF SENATOR MURRAY

    Senator Murray. Thank you very much, Mr. Chairman. In the 
decades, as Congress passed the HITECH Act to help spread 
better use of healthcare technology, we have made tremendous 
progress.
    Back in 2008, just one in twenty hospitals used electronic 
health records and today we have seen that statistically flip 
entirely, one in twenty hospitals have not adopted electronic 
health records. We saw the impact of that shift nationally when 
electronic health records played an important role in 
understanding how the water in Flint, Michigan was putting 
families in danger. And healthcare providers have seen the 
impact of that shift in their work as electronic health records 
have helped them identify health problems sooner so patients 
can get preventive care to stay healthy, avoid duplicative 
tests or medication errors, and identify treatments that might 
be counterproductive based on a patient's medical history or 
current prescriptions. But for all the promise of electronic 
health records, we have also seen the serious danger to 
patients when health IT systems failed to live up to high 
standards of quality.
    From the man in California who suffered brain damage after 
his diagnosis was delayed when a hospital software could not 
properly interface with the lab, to the women in Vermont who 
died of a brain aneurysm that might have been caught if a 
software problem had not stopped the order for the test that 
she needed. Families' lives depend on making sure we get this 
right, which is why I was glad Congress, and this Committee in 
particular, was able to take action in the 21st Century Cures 
Act to address some of the biggest challenges we face, and why 
I am eager to hear today from our witnesses about how the 
Office of the National Coordinator for Health Information 
Technology is implementing the steps that we passed.
    While HITECH required certified electronic health record 
products to meet technical standards intended to make good 
information more accessible for care providers, a 2015 ONC 
report detailed how instead of making information easy to 
access and share, many organizations engaged in information 
blocking, intentionally setting up barriers between their 
systems and other systems like exorbitant fees whenever someone 
sent, received, or even searched for a patient's information, 
contracts that restricted people's ability to access and share 
their own health information, and systems built in ways that 
made sharing information needlessly complicated.
    We have also seen how too many health IT vendors include 
gag causes to stop care providers from speaking out about the 
problems or the issues in errors that the encountered. We 
cannot afford to have bad actors who prioritize their bottom 
line over patients' best interest, who block information that 
is essential to patient care, and who prevent people from 
speaking out when they see something that could jeopardize 
someone's health because when systems cannot speak to each 
other and people can't speak up about problems they see, it is 
patients that get hurt. That is why in the 21st Century Cures 
Act, Congress moved to end information blocking and make clear 
when patients and their care providers need information, they 
should not be stopped by unnecessary, unreasonable barriers.
    We then tasked ONC with clarifying what concerns, like 
privacy, safety, and security, would be grounds for reasonable 
exceptions. We also took steps to help ONC strengthen its 
certification program so they can require vendors seeking the 
Government seal of approval to swear off information blocking 
and gag clauses. The new conditions also call for open 
application programming interfaces, APIs, another step that 
will help make sure systems, developed by different vendors and 
used by different doctors, are able to speak to each other and 
patients have an easier time getting access to their medical 
records. These are important steps. I am looking forward to 
hearing today about how ONC is working to carry them out.
    I am also eager to hear about how the Centers for Medicare 
and Medicaid Services is working on a parallel track to make 
claims data more accessible and prompt care providers to be 
better about sharing information. I hope during today's hearing 
we can also focus on how to make sure health information 
technology doesn't just work for providers, but for patients 
and that means tackling patient engagement and usability so 
patients who are looking for clear information about their 
health can find more than massive binders and unreadable PDFs 
and stacks of CDs.
    We also need to make sure we are discussing what is 
required for all parties to be good stewards of the data people 
entrust them with and supporting the development of technology 
and best practices to keep people's personal information 
private and secure. This is only going to become more important 
as tech companies and others introduce new products, mobile 
applications, that empower people with their healthcare data, 
that are not covered by existing HIPAA protections. Patients 
should be able to expect tech companies are going to use their 
most sensitive information responsibly and give them the tools 
they need to be able to control how and when their information 
is disclosed.
    Our objective should be to make sure tech companies are 
putting patients in the driver seat, not the other way around. 
So, I hope our witnesses will be able to speak to the 
importance of that as well. I look forward to continuing our 
bipartisan, Mr. Chairman, to help make sure health technology 
is informing and empowering patients and providers in a way 
that leads to better care and helps people live happier, 
healthier lives.
    Thank you.
    The Chairman. Thank you, Senator Murray. I think the 
witnesses can see by the attendance already today that this is 
of interest to a large number of Democrat and Republican 
Senators because we spent so much time with it in the 21st 
Century Cures Act. I am pleased to welcome our two witnesses 
today. I would like to ask you each to summarize your remarks 
in five minutes. The first witness, Dr. Don Rucker. He is the 
National Coordinator for Health Information Technology for the 
Office of the National Coordinator for Health IT within the 
Department of Health and Human Services. That is a big, long 
title. He has extensive experience with health information 
technology both in public service and the private sector, most 
recently serving as Clinical Professor of Emergency Medicine 
and Biomedical Informatics at the Ohio State University.
    Next, we will hear from Dr. Kate Goodrich who testified 
before the HELP Committee in 2017 on the implementation of 
health information technology provisions in the 21st Century 
Cures Act. Dr. Goodrich is the Director of the Center for 
Clinical Standards and Quality and the Chief Medical Officer 
for the Centers for Medicare and Medicaid Services. Dr. 
Goodrich has over 20 years of clinical and quality standards 
experience both as a practicing physician and in several roles 
with the Center for Clinical Standards and Quality.
    Dr. Rucker let us begin with you.

STATEMENT OF DON RUCKER, M.D., NATIONAL COORDINATOR FOR HEALTH 
INFORMATION TECHNOLOGY, OFFICE OF THE NATIONAL COORDINATOR FOR 
  HEALTH INFORMATION TECHNOLOGY, UNITED STATES DEPARTMENT OF 
           HEALTH AND HUMAN SERVICES, WASHINGTON, DC

    Dr. Rucker. Thank you. Chairman Alexander, Ranking Member 
Murray, distinguished Members of the Committee, thank you for 
the opportunity to testify. As an ER physician and electronic 
health records software developer for the last 30 years, I am 
deeply appreciative to Congress for the 21st Century Cures Act 
and the work to improve interoperability and reduce provider 
burden.
    ONC's proposed Cures Act rule will help achieve Congress's 
vision for a patient's health information to be available to 
the patient and their clinicians whenever and wherever they 
need it. This rule can also unleash a wave of innovation that 
will make healthcare more efficient and affordable. The rule 
requires secure standards-based application programming 
interfaces that will allow patients to download their records 
to their phone and to do so at no cost. Moving patient charts 
to smart phone platforms will enable third-party app developers 
to build new business models of healthcare. Specifically, the 
proposed rule will require physician and hospital electronic 
record systems to allow patients to download their medical data 
to apps of the patient's choosing. App ecosystems have 
transformed many industries, including travel, entertainment, 
and shopping. An app ecosystem can do the same for healthcare.
    However, the promise of standards-based APIs can only be 
realized if providers and their business partners actually 
share the clinical data. The practice of information blocking 
not only undermines investments in the nation's health IT 
infrastructure but also frustrates efforts to use technology to 
improve care. The Cures Act directed ONC to identify activities 
that would not be treated as information blocking and the 
proposed rule outlines seven exceptions. At the same time, the 
Cures Act authorizes the HHS Office of the Inspector General to 
investigate information blocking allegations against healthcare 
providers, developers of certified health IT, health 
information exchanges, and health information networks.
    ONC's proposed rule makes it clear that data should move 
seamlessly in a private and secure manner without special 
effort on the part of the end-user. In addition, we have heard 
the concerns from stakeholders about security of APIs and 
secondary uses of health data. When it comes to security, this 
proposed rule requires the same API standards used by other 
industries which have to protect valuable assets such as 
banking and brokerage. Secondary use of data creates privacy 
challenges that extend beyond the healthcare industry. Today, 
deeply sensitive health facts can be inferred from online 
searches, credit card purchases, and social media postings.
    For example, location services can show which clinical a 
patient visited. While ONC's proposed rule empowers patients to 
take control of their data and their health, we are actively 
engaged with the Office of Civil Rights to inform patients 
about both their HIPAA rights and potential risks. Our proposed 
rule also recognizes the importance of price data. Today, 
payment data is retrospective and largely disconnected from 
clinical data. However, without price data, it is difficult for 
patients to either assess value or shop for care. Recent 
advances and standards may allow improved integration between 
clinical financial data streams.
    As defined in the Cures Act, ONC recently issued an updated 
draft of the Trusted Exchange Framework and Common Agreement, 
known as TEFCA, for public comment. TEFCA is designed to 
provide a single on-ramp to nationwide connectivity for health 
information exchanges and to include all providers. It includes 
a common set of principles that will facilitate trust and 
sharing between health information exchanges.
    Today, much of American healthcare remains complex and 
opaque. Congress's Cures Act and advances in computing allow us 
to revisit many assumptions about what medical care can be. 
ONC's proposed rule and TEFCA service major steps to make care 
more accessible, transparent, and affordable. We believe these 
policies place the Nation on the path to achieving the long-
term benefits of interoperability.
    Mr. Chairman, Ranking Member, Members of the Committee, 
thank you for the opportunity to testify.
    [The prepared statement of Dr. Rucker follows:]
                    prepared statement of don rucker
    Chairman Alexander, Ranking Member Murray, distinguished Members of 
the Committee, thank you for the opportunity to testify in support of 
the Department of Health and Human Services (HHS), Office of the 
National Coordinator for Health Information Technology's (ONC) efforts 
to implement provisions of title IV of the 21st Century Cures Act 
(Cures Act). I want to thank Congress and this Committee for your 
shared commitment to stimulate a modern and connected health care 
system. The bipartisan Cures Act accelerates our efforts to ensure that 
patients' records follow them when and where they need them.

    The Cures Act directs the HHS Secretary to adopt standards and 
policies that advance the seamless and secure flow of electronic health 
information (EHI) across the health system. On March 4, 2019, ONC 
issued a proposed rule to implement key provisions in title IV of the 
Cures Act. This proposed rule aims to drive the electronic access, 
exchange, and use of health information. It seeks to inject competition 
into the health care delivery system by addressing both technical 
barriers and business practices that impede the secure and appropriate 
sharing of data. A central purpose of the proposed rule is to 
facilitate patient access to their EHI on their smartphone, growing a 
nascent patient- and provider-facing app economy.

    I would like to begin by discussing the current health care and 
health information technology (health IT environments. In an 
extraordinary shift from a decade ago, most hospitals and providers now 
use electronic health records (EHR). \1\ However, information captured 
in these systems often remains inaccessible to patients and to their 
providers across different settings.
---------------------------------------------------------------------------
    \1\  Office of the National Coordinator for Health Information 
Technology (2018). Report to Congress: Annual Update on the Adoption of 
a Nationwide System for Electronic Use and Exchange of Health 
Information [online] Washington, DC. Available at: https://
www.healthit.gov/sites/default/files/page/2018--12/2018--HITECH--
report--to--Congress.pdf [Accessed 25 Apr. 2019.
---------------------------------------------------------------------------
    Fragmented care can lead to hospital readmissions, medical errors, 
and poor health outcomes, especially among patients with multiple 
chronic conditions who rely on coordinated care to help manage their 
health. \2\, \3\, \4\ Today, only half of hospitals report having the 
necessary information electronically available from outside providers 
or sources at the point of care. Notably, hospitals with advanced 
interoperability capabilities are significantly more likely to have 
information available from outside sources compared with hospitals 
lacking those capabilities. \5\ A health system where information flows 
appropriately and securely to patients and their providers can improve 
care coordination, reduce adverse events, and lower costs. ONC designed 
this proposed rule to help stimulate a more connected health system 
that leverages health information to better serve patients.
---------------------------------------------------------------------------
    \2\  Moore, Carlton et al. ``Medical Errors Related To 
Discontinuity of Care From An Inpatient To An Outpatient Setting.'' 
Journal Of General Internal Medicine, vol 18, no. 8, 2003, pp. 646-651. 
Springer Nature, doi:10.1046/j.1525-1497.2003.20722.x. Accessed 25 Apr 
2019.
    \3\  Tsai TC., Orav EJ., & Jha AK. ``Care Fragmentation in the 
Postdischarge Period: Surgical Readmissions, Distance of Travel, and 
Postoperative Mortality.'' JAMA Surg. 2015 Jan;150(1):59-64. Accessed 
25 Apr 2019.
    \4\  Robert Wood Johnson Foundation (U.S.) The Revolving Door: A 
Report on U.S. Hospital Readmissions. The Dartmouth Institute for 
Health Policy and Clinical Practice, 2013.
    \5\  Pylypchuk Y., Johnson C., Henry J. & Ciricean D. (November 
2018). ``Variation in Interoperability among U.S. Non-Federal Acute 
Care Hospitals in 2017.'' ONC Data Brief, no.42. Office of the National 
Coordinator for Health Information Technology: Washington DC.
---------------------------------------------------------------------------
    To develop this proposed rule, ONC coordinated extensively with 
relevant Federal agencies. We also met with more than 150 external 
stakeholders from across the health system to improve our understanding 
of the on-the-ground needs and barriers related to the flow of EHI. 
While the proposed rule covers many provisions within title IV of the 
Cures Act, today, I am going to highlight how the proposed rule 
addresses the Conditions of Certification and Information Blocking 
provisions.

    The conditions and maintenance of certification proposals include 
requirements for health IT developers under the ONC Health IT 
Certification Program and cover a range of business practices and 
behaviors that impede the access, exchange, and use of EHI. The first 
condition I will highlight focuses on the Cures Act requirement for 
health IT developers to publish application programming interfaces 
(APIs) that allow health information to be securely accessed, 
exchanged, and used ``without special effort.'' Requiring health IT 
developers to publish an API is not enough. Without common standards, 
third-party app developers need to learn and use different requirements 
and data base structures for each health IT system. This hampers 
competition by binding patients and app developers to particular 
clinicians or products.

    The proposed rule includes a suite of proposals that focus on 
certified health IT developers making available secure, standards-based 
APIs that facilitate patients' use of their smartphones (or other 
mobile devices) for accessing EHI at no cost. It also supports 
clinicians' ability to partner with third-party software developers 
offering unique and competitive services that support patient care. 
Specifically, ONC proposes to adopt a new standards-based API 
certification criterion that would require that a health IT product 
support ``read'' access to health information for both a single patient 
and for a group of patients. The proposed rule addresses the Cures Act 
phrase ``without special effort'' through a number of proposals that 
promote standardized, transparent, and pro-competitive market 
practices. Once finalized, health care providers would have two years 
from the final rule's publication date to offer patients' access to 
their EHI through secure, standards-based APIs.

    While developing the proposed rule, stakeholders shared two 
overarching security concerns. The first concern has to do with the 
overall security of APIs. The second concern touches upon the secondary 
use of data. When it comes to security, it is important to note that 
the health IT developers and health care providers using certified 
health IT would deploy APIs with the same security measures used by 
other industries, such as banking (through the OAuth 2 standard). In 
fact, health care providers already offer the same security measures to 
protect patient portals. Third-party health care apps who wish to 
connect to a health IT developer's certified API would need to 
establish secure connections, prompt patients to authenticate 
themselves to their health care provider, and obtain a patient's 
approval on the scope of data that the app may access.

    How data is secured and used once in third-party apps illustrates a 
pressing issue that is currently part of a national discussion a 
discussion that extends beyond health care and into data privacy, 
stewardship, and regulatory interventions. How APIs secure their 
connections and follow patients' individual preferences in health care 
is no exception. Many third-party apps are not required to implement 
the privacy protections and patient rights of the Health Insurance 
Portability and Accountability Act (HIPAA) Privacy and Security Rules, 
but they may be subject to the Federal Trade Commission (FTC) 
jurisdiction, including the Health Breach Notification Rule.

    The HHS Office for Civil Rights (OCR) has regulatory authority to 
ensure the privacy and security of data applies only to HIPAA covered 
entities (e.g., many health care providers, health plans) and their 
business associates (e.g., EHR developers). In April 2019, OCR released 
new frequently asked questions (FAQs) about the HIPAA right of access 
related to patient-designated apps and APIs. The FAQs clarify that once 
protected health information has been shared to a third-party app, as 
directed by the individual, the HIPAA-covered entity (or its business 
associate that fulfills the access request on behalf of the covered 
entity) will not be liable under HIPAA for subsequent use or disclosure 
of that particular electronic protected health information. This is 
provided that, with respect to the app, the app developer is not itself 
a business associate of a covered entity, directly or through another 
business associate.

    Across all business sectors, individuals often have little say with 
respect to the secondary use and disclosure of their personal data. 
However, the misuse of health information can have lifelong 
consequences for the patient. Individuals should balance their 
selection and use of a health app with the potential risk of having 
negative implications. These risks are similar to when they enter 
sensitive health data into an online search, contribute their DNA to 
learn about their ancestral heritage, share their credit card 
information when making an online purchase, or consent to location 
services on their phones. It is important to note that deeply sensitive 
health facts about patients can be inferred from consumer data 
``exhaust'' such as accelerometers, location services, and a wide 
variety of app and social media usage patterns.

    Individuals should have the ability to decide whether the potential 
benefit of an app to manage their health care information and medical 
conditions outweighs potential risks. This should be the patient's 
choice. Interestingly, some entities advocating to protect the patient 
from inappropriate secondary uses and disclosures of the patient's data 
have business models at risk from patients accessing their EHI. ONC's 
proposed rule empowers individuals to electronically access and share 
their EHI, enabling an individual's HIPAA right of access, and 
affording the patient agency over their own health information that is 
often absent in health care.

    Today's fragmented health system forces individuals or caregivers 
to navigate a byzantine system to manage their care. Emerging 
technologies and the use of mobile apps will provide individuals with 
access to their own EHI that can follow them across providers and 
health plans, and advance an app marketplace that addresses unique 
patient needs. \6\ For instance, an app may empower patients with 
multiple chronic conditions to consolidate and share their care journey 
with each clinician they visit, potentially preventing adverse and 
life-threatening events due to missing clinical information. A robust 
health app ecosystem can also lead to the development of disease-
specific apps that allow patients to choose whether to share their 
health information with researchers working on clinical trials to test 
a drug or treatment's efficacy like those in the National Institutes of 
Health's All of Us Research Program. Apps could also help address 
barriers related to access by presenting complex information in easy to 
understand ways.
---------------------------------------------------------------------------
    \6\  Mandl, Kenneth D., Mandel Joshua C., & Kohane Isaac S. 
``Driving Innovation in Health Systems through an Apps-Based 
Information Economy.'' Cell Systems. 2015 Jul;1(1):8-13. Accessed 25 
Apr 2019.
---------------------------------------------------------------------------
    We have seen promising signs of this occurring in the private 
sector. Last year, Apple introduced their Health Records on the iPhone 
using the same modern computing standards included in our proposed 
rule. A little over a year later, over 200 health institutions use the 
Health app to offer their patients access to their health records. Many 
other entrepreneurs are developing novel health apps as well, and our 
proposed rule is designed to lower the barriers to their entry into the 
health app industry. Later, I will discuss how we can envision this 
same approach taking shape when it comes to price transparency and 
providing patients with the ability to shop for care based on the price 
and quality of care.

    In addition to addressing the flow of EHI, this proposed rule seeks 
to enhance the safety of health IT. In 1999, when most clinicians were 
still using paper records, the former Institute of Medicine (now the 
National Academy of Medicine) published a seminal report, to Err is 
Human, where they estimated that between 44,000 to 98,000 people die in 
hospitals each year due to preventable medical errors. \7\ There is 
ample evidence that well-designed health IT systems can make care 
safer. \8\ However, due to the innate complexity of medicine and 
radical changes to established clinical workflows, health IT has 
introduced new safety issues and also exacerbated others.
---------------------------------------------------------------------------
    \7\  Institute of Medicine. 2000. To Err Is Human: Building a Safer 
Health System. Washington, DC: The National Academies Press. https://
doi.org/10.17226/9728.
    \8\  Office of the National Coordinator for Health Information 
Technology. ``Effects of Meaningful Use Functionalities On Health Care 
Quality, Safety, And Efficiency.'' Dashboard.Healthit.Gov, 2014, 
https://dashboard.healthit.gov/quickstats/pages/FIG-Health-IT-
Literature-Review-Infographic.php.
---------------------------------------------------------------------------
    One resounding complaint we heard from the patient safety community 
is that health IT developers use gag clauses to inhibit the flow of 
essential information that could improve safety across systems. A 2012 
National Academy of Medicine report found that such clauses discourage 
users from sharing information about patient safety risks, 
significantly limiting the ability of users to understand how health IT 
products impact patient safety. The report stressed the need for health 
IT developers to enable the exchange of information regarding user 
experiences, including the sharing of screenshots. \9\ As part of ONC's 
patient safety efforts that are paramount to its mission, programs, and 
policies, this proposed rule would prevent certified health IT 
developers from prohibiting or restricting communications regarding 
usability, interoperability, security, user experiences, business 
practices, and technology use. We also included provisions to respect 
health IT developers' intellectual property in the software.
---------------------------------------------------------------------------
    \9\  Institute of Medicine (U. S.). Health IT and Patient Safety: 
Building Safer Systems For Better Care (Health Information Technology 
And Patient Safety). National Academies Press, 2012.
---------------------------------------------------------------------------
    The promise of standards-based API technology can only be 
successful if current business practices that enable information 
blocking to occur are dismantled. For that reason, I thank Congress for 
establishing consequences for information blocking in the Cures Act. 
The information blocking provisions were enacted in response to 
concerns that some individuals and entities engage in practices that 
unreasonably limit the availability and use of EHI for authorized and 
permitted purposes. These practices undermine public and private sector 
investments in the Nation's health IT infrastructure. They also 
frustrate efforts to use modern technologies to improve health care 
quality and efficiency, accelerate research and innovation, and provide 
greater value and choice to health care consumers.

    The information blocking provisions apply to health care providers, 
developers of certified health IT, health information exchanges, and 
health information networks. Under the Cures Act, the HHS Office of the 
Inspector General (OIG) has authority to investigate information 
blocking claims against these entities. Health care providers can be 
subject to disincentives determined by the HHS Secretary if the OIG 
finds that the provider has knowingly and unreasonably engaged in 
information blocking. Developers of certified health IT, health 
information exchanges, and health information networks can be subject 
to civil monetary penalties determined by OIG of up to $1 million per 
violation.

    The proposed rule establishes seven exceptions that identify 
certain reasonable and necessary activities that do not constitute 
information blocking. To develop the proposed exceptions, we were 
guided by three overarching policy considerations. First, the 
exceptions would be limited to certain activities that clearly advance 
the aims of the information blocking provision. Second, each exception 
is intended to address a significant risk that regulated actors (i.e., 
health care providers, health IT developers of certified health IT, 
health information networks, and health information exchanges) would 
not engage in certain reasonable and necessary activities because of 
potential uncertainty regarding whether those activities would be 
considered information blocking. Third, each exception would be 
tailored, through appropriate conditions, so that it is limited to 
those reasonable and necessary activities that it is designed to 
exempt. These exceptions also would be subject to strict conditions to 
ensure that they do not extend protections to practices that should be 
considered information blocking.

    An action would not be treated as information blocking if it 
satisfies one or more of these seven exceptions. The first three 
exceptions extend to certain activities that are reasonable and 
necessary to prevent harm to patients and others; promote the privacy 
of EHI; and promote the security of EHI. We believe that without these 
exceptions, it would erode trust and undermine efforts to provide 
access and facilitate the exchange and use of EHI for important 
purposes.

    The next three exceptions promote competition and innovation. 
First, we propose to permit the recovery of certain types of reasonable 
costs incurred to provide technology and services that enable access to 
EHI and facilitate the exchange and use of that information. For 
example, this exception enables the recovery of costs reasonably 
incurred to develop technologies and provide services that enhance 
interoperability, while not protecting rent-seeking, opportunistic 
fees, and exclusionary practices that interfere with access, exchange, 
and use of EHI. Second, the proposed rule would permit an entity to 
decline infeasible requests to exchange EHI but would still require the 
actor to find a reasonable alternative for providing the EHI. Third, we 
propose an exception that would permit the licensing of 
interoperability elements on reasonable and non-discriminatory terms. 
Contractual and intellectual property rights are frequently used to 
extract rents for access to EHI or to prevent competition from 
developers of interoperable technologies and services. Such practices 
frustrate interoperability and stifle competition and innovation. In 
many scenarios, however, it is generally appropriate to license 
intellectual property on reasonable and non-discriminatory terms to 
support access, exchange, and use of EHI. This exception would further 
the goals of the information blocking provision by allowing for the 
protection of the value of their innovations and earn returns on the 
investments made to develop, maintain, and update those innovations.

    For health IT to perform properly and efficiently, it must be 
maintained, and in some instances improved. This may require that 
health IT be taken offline temporarily. The final exception would allow 
EHI to be temporarily unavailable during health IT implementation 
upgrades, repairs, and other changes.

    ONC's proposed rule primarily focuses on clinical data. However, 
advances in computer science and the maturity of data standards are 
accelerating the convergence of medical data with billing and price 
data. As such, the rule proposes to include such information as part of 
a patient's EHI that should be available for access, exchange, and use. 
The idiosyncratic and complex nature of pricing within the health care 
system has decreased efficiency and negatively impacted patients, 
clinicians, health systems, plans, plan sponsors, and other 
stakeholders.

    In our current health system, there is an asymmetry of information 
for patients. They have few ways if any to anticipate or plan for 
costs, lower or compare costs, and, importantly, measure their quality 
of care or coverage relative to the price they pay. Transparency in the 
price and cost of health care could help address some of those concerns 
by empowering patients with information they need to make informed 
decisions. Further, the wide availability of price information for 
health care services could engender competition and accountability 
based on the quality and value of those services in health care. 
Increased consumer demand, aligned incentives, more accessible and 
digestible information, and the evolution of price transparency tools 
are critical components to move from a delivery system that rewards 
volume of services to one that recognizes and rewards the value of 
health care services.

    Unfortunately, the complex and decentralized nature of how payment 
information for health care services is currently created, structured, 
and stored presents many challenges to achieving price transparency. 
This entire information chain is geared to retrospective payments 
rather than prices. The public has little idea what the CPT billing 
codes mean, or how they might be combined if at all to determine a 
prospective price. As noted in my discussion of APIs, we can see a 
future where, for example, platforms use raw data to provide consumers 
with digestible price information through their preferred medium such 
as an online tool or smartphone app. As such, the proposed rule seeks 
public input on both how we can scope and capture price information as 
part of EHI as well as what steps HHS can take, using all its available 
resources, to provide price transparency.

    I also want to note that, as part of ONC's implementation of 
congressional direction articulated through the Cures Act, we recently 
issued an updated draft of the Trusted Exchange Framework and Common 
Agreement (TEFCA) for public comment, which includes a common set of 
principles that facilitate trust between health information networks. 
The TEFCA is designed to provide a single ``on-ramp'' to nationwide 
connectivity and advance a landscape where information securely follows 
the patient where and when it is needed. We also issued a funding 
opportunity announcement for the selection of a private sector non-
profit organization that will serve as the Recognized Coordinating 
Entity responsible for developing, updating, implementing, and 
maintaining the Common Agreement with ONC. This Common Agreement will 
create the baseline technical and legal requirements for networks to 
share EHI across the Nation. Nationwide interoperability is not a 
simple undertaking, and something as expansive as a final TEFCA 
requires thoughtful consideration of the issues and challenges. ONC's 
intention with releasing the draft for a second round of public comment 
is to ensure we get it right.

    I also wanted to note that a significant unmet need in the health 
care system is for patients with behavioral health conditions. These 
patients may transition between emergency rooms, primary care, mental 
and behavioral health specialists, shelters, group homes, and various 
treatment centers. When these patients present at a new setting, a 
provider may know where they transferred from, but lack the necessary 
insight about their care journey. ONC previously funded various 
programs to accelerate health information exchange at the state, 
regional, and local level. These community information exchanges have 
demonstrated reductions in care utilization, such as through reduced 
duplicate testing and imaging for patients. 1A\10\, \11\ Community 
information exchanges are positioned to connect patients with clinical 
services and social supports. ONC remains committed to advancing 
community information exchange to support care coordination and improve 
health, especially for patients with behavioral health conditions.
---------------------------------------------------------------------------
    \10\  Ayer, Turgay et al. ``The Impact of Health Information 
Exchanges on Emergency Department Length Of Stay.'' Production and 
Operations Management, vol 28, no. 3, 2018, pp. 740-758. Wiley, 
doi:10.1111/poms.12953. Accessed 25 Apr 2019.
    \11\  Lammers, Eric J. et al. ``Does Health Information Exchange 
Reduce Redundant Imaging? Evidence from Emergency Departments.'' 
Medical Care, vol 52, no. 3, 2014, pp. 227-234. Ovid Technologies 
(Wolters Kluwer Health), doi:10.1097/mlr.0000000000000067. Accessed 25 
Apr 2019.
---------------------------------------------------------------------------
    In addition, the provisions in our proposed rule to support the use 
of secure APIs and to support the access, exchange, and use of 
electronic health information can also offer promising strategies to 
combat opioid use disorder (OUD). Data such as opioid prescription drug 
data, prior OUD diagnosis and treatment data, and community health 
information is essential for providers to be able to prevent and treat 
OUD. This data continues to be siloed across systems. This makes access 
to this information and to related decision making tools burdensome for 
providers. We look forward to continuing to advance the adoption of 
common industry standards that could help to address opioid use 
disorder prevention and treatment while addressing the patients' need 
for privacy.

    In summary, much of today's American health care delivery system 
remains complex and opaque to providers and patients. Congress's 21st 
Century Cures Act and advances in modern computing allow us to revisit 
many of the assumptions about what delivery of medical care could and 
should be. ONC's proposed rule and advancements on the Trusted Exchange 
Framework and Common Agreement serve as major steps to make health care 
more transparent, accountable, and patient and provider accessible. We 
believe these policies firmly place the Nation on the path to achieving 
the long-term benefits of interoperability of electronic health 
information connecting for the U.S. health system.

    We will continue to keep Congress informed of milestones as they 
occur. Mr. Chairman, Ranking Member, and Members of the Committee, 
thank you for the opportunity to testify. I look forward to responding 
to any questions you may have.
                                 ______
                                 
                   [summary statement of don rucker]
    The 21st Century Cures Act directs the HHS Secretary to adopt 
standards and policies that advance the seamless and secure flow of 
electronic health information (EHI) across the health system. On March 
4, 2019, ONC issued a proposed rule to implement key provisions in 
Title IV of the Cures Act. This proposed rule aims to drive the 
electronic access, exchange, and use of health information. It seeks to 
inject competition into the health care delivery system by addressing 
both technical barriers and business practices that impede the secure 
and appropriate sharing of data.

    A central purpose of the proposed rule is to facilitate patient 
access to their EHI on their smartphone, growing a burgeoning patient- 
and provider-facing app economy. The proposed rule includes proposals 
that focus on certified health IT developers making available secure, 
standards-based APIs that facilitate patients' use of their smartphones 
(or other mobile devices) for accessing EHI at no cost.

    The promise of standards-based API technology can only be 
successful if current business practices that enable information 
blocking are dismantled. The Cures Act's information blocking 
provisions were enacted in response to concerns that some individuals 
and entities engage in practices that unreasonably limit the 
availability and use of EHI for authorized and permitted purposes. 
These practices undermine public and private sector investments in the 
Nation's health IT infrastructure. The proposed rule establishes seven 
exceptions that identify certain reasonable and necessary activities 
that do not constitute information blocking.

    ONC's proposed rule primarily focuses on clinical data. However, 
advances in computer science and maturing data standards are 
accelerating the convergence of medical data with billing and price 
data. As such, the rule proposes to include such information as part of 
a patient's EHI that should be available for access, exchange, and use.

    ONC also recently issued an updated draft of the Trusted Exchange 
Framework and Common Agreement (TEFCA) for public comment, which 
includes a common set of principles that facilitate trust between 
health information networks. The TEFCA is designed to provide a single 
``on-ramp'' to nationwide connectivity and advance a landscape where 
information securely follows the patient. We also issued a funding 
opportunity announcement for the selection of a Recognized Coordinating 
Entity responsible for developing, updating, implementing, and 
maintaining the Common Agreement with ONC.

    In summary, much of today's American health care delivery system 
remains complex and opaque to providers and patients. The Cures Act and 
advances in modern computing allow us to revisit many of the 
assumptions about what delivery of medical care could and should be. 
ONC's proposed rule and advancements on the TEFCA serve as major steps 
to make health care more transparent, accountable, and accessible for 
both patients and providers. We believe these policies firmly place the 
Nation on the path to achieving the long-term benefits of 
interoperability of electronic health information connecting for the 
U.S. health system.
                                 ______
                                 
    The Chairman. Thank you Dr. Rucker, Dr. Goodrich, welcome.

   STATEMENT OF KATE GOODRICH, M.D., DIRECTOR AND CENTER FOR 
 MEDICARE AND MEDICAID SERVICES CHIEF MEDICAL OFFICER, CENTER 
  FOR CLINICAL STANDARDS AND QUALITY, CENTER FOR MEDICARE AND 
MEDICAID SERVICES, UNITED STATES DEPARTMENT OF HEALTH AND HUMAN 
                    SERVICES, WASHINGTON, DC

    Dr. Goodrich. Thank you. Chairman Alexander, Ranking Member 
Murray, and Members of the Committee, thank you for the 
invitation to testify today on behalf of the Centers for 
Medicare and Medicaid Services. I appreciate this opportunity 
to discuss our efforts to foster innovation that promotes 
patient access to and use of their health information.
    At CMS we are committed to advancing interoperability and 
improving access to health information for patients in the 
healthcare system. As a practicing physician, I know how 
important it is to be fully informed of a patient's medical 
history before making a diagnosis, or proposing a treatment 
plan, or prescribing a medication. And as a patient, I value my 
right to access my own health information and to use it to 
better manage my care. A core policy principle underlying our 
proposals is that every American should be able, without 
special effort or advanced technical skills, to see, obtain, 
and use all electronically available information that is 
relevant to their health, care, and choices of plans, 
providers, and specific treatment options.
    While many consumers today can often access their own 
health information through patient portals and proprietary 
applications made available by various providers and health 
plans, they typically must go through distinct processes, 
separate processes, to obtain access to each system and often 
need to manually aggregate information that is delivered in 
various non-standardized formats. CMS believes that when a 
patient receives care from a new provider, a complete record of 
their health information should be readily available to that 
provider regardless of where their care may have been 
previously provided or by whom. Similarly, when an enrollee 
changes health plans or ages into Medicare, the enrollee should 
be able to have their claim's history and encounter data follow 
them so that information is not lost.
    Last year, the administration launched the My Healthy Data 
Initiative, a Government wide initiative spearheaded by the 
White House Office of American Innovation with participation 
from CMS and other Federal agencies. A key goal of this 
initiative is to empower patients by giving them the ability to 
move from health plan to health plan and from provider to 
provider while having both their clinical and administrative 
information follow them. In support of My Healthy Data, CMS 
launched Blue Button 2.0, our first developer-friendly, 
standards-based application programming interface that allows 
Medicare fee-for-service beneficiaries to access and share 
their healthcare claims data with applications and services 
that help them manage their health, as well as with their 
doctors and their caregivers. Through Blue Button 2.0, the 
nearly 40 million beneficiaries enrolled in traditional 
Medicare now have the ability to access their claims data using 
third-party applications.
    On March 4th, inspired by the vision set out by Congress in 
the 21st Century Cures Act, CMS issued a proposed rule that 
would, for the first time, require health plans doing business 
in Medicare Advantage, Medicaid, and through the Federal 
exchanges to follow our lead and share health claims data and 
other important information electronically with their patients. 
We announced our proposal concurrently with the office of the 
National Coordinator who's proposed rule updates standards for 
certified electronic health records.
    As we move forward through the rulemaking process, our 
agencies will continue to collaborate to make sure our policies 
work together in order to drive interoperability and improve 
care coordination for patients. Our efforts are designed to 
help patients access their health data through common 
technologies and without special effort. And while patients had 
a right to access their health care data and use it in any way 
they deem fit, we also feel a responsibility to protect the 
privacy and security of this sensitive information. That is why 
our proposed rule includes a requirement for plans to educate 
patients about the risks that they should consider when sharing 
their health data with third-party application developers. We 
also expect developers to maintain strong privacy and security 
standards as they develop applications for patients.
    Across the agency, CMS relies heavily on stakeholder 
feedback to help us improve our programs. We extended a public 
comment period on our interoperability proposed rule by 30 
days, and we encourage plans, providers, Members of Congress, 
and other interested parties to provide us comments for us to 
consider as we move forward through the decision making 
process. The deadline is June 3d, and we look forward to 
hearing ideas about how we can improve upon our proposals and 
implementation strategies.
    Thank you again for the invitation to be here and I look 
forward to answering your questions.
    [The prepared statement of Dr. Goodrich follows:]
                  prepared statement of kate goodrich
    Chairman Alexander, Ranking Member Murray, and Members of the 
Committee, thank you for the opportunity to discuss Centers for 
Medicare & Medicaid Services' (CMS's) efforts to foster innovation that 
promotes patient access to and use of their health information. We are 
committed to advancing interoperability and improving access to health 
information for patients in the U.S. health care system. As evidenced 
by our ongoing work, as well as our proposed rule now out for public 
comment, CMS is taking an active approach to move the health care 
market toward interoperability and the secure and timely exchange of 
health information by proposing policies for the Medicare and Medicaid 
programs, the Children's Health Insurance Program (CHIP), and issuers 
of health plans sold on the Federal Exchange.

    Last year, the administration launched the MyHealthEData 
Initiative, which aims to break down the barriers that prevent patients 
from gaining electronic access to their health information from the 
device or application of their choice, empowering patients and taking a 
critical step toward interoperability and patient data exchange. As 
part of this initiative, we are taking a patient-centered approach to 
health information access and moving to a system in which empowered 
patients have immediate access to their health information 
electronically. Patients will have the ability to securely share their 
health information, creating a single record that will follow them as 
they move throughout the health care system, giving them the data they 
need to make the best decisions for themselves and their families.
                        Medicare Blue Button 2.0
    In support of this goal, and in support of the MyHealthEData 
initiative, last year, the CMS announced the launch of Blue Button 2.0, 
our first secure, standards-based Application Program Interface (API) 
that allows Medicare beneficiaries to access and share their health 
care claims data with applications and services that help them manage 
their health, in addition to sharing this information with their 
doctors and caregivers. API technology allows software from different 
developers to connect with one another and exchange electronic health 
information in electronic formats that can be more easily compiled and 
shared.

    Through Blue Button 2.0, Medicare beneficiaries can select third 
party applications to connect to their data to compile and use their 
electronic health information. There are now 20 Blue Button apps 
available, which are posted on Medicare.gov, and developers are 
currently working on many more. Among other uses, these applications 
can help beneficiaries find plans, organize and share medical 
information and claims, or make appointments. We are also excited about 
the promises of research that can be enabled through beneficiaries 
choosing to share their data to help in the development of the next 
generation of cures and innovative treatments.

    Ensuring the privacy and security of beneficiary data has been a 
priority for CMS since the beginning of this effort. We have taken a 
number of steps to protect beneficiary data, including regular systems 
security testing. Blue Button applications use existing CMS standards 
for beneficiary authorization, and they must use clear and plain 
language to alert beneficiaries to the sensitivity of the data they are 
sharing. Additionally, CMS offers a user-friendly dashboard on 
MyMedicare that allows beneficiaries to turn off data access for any 
application at any time.
           Interoperability and Patient Access Proposed Rule
    Continuing to build on the MyHealthEData initiative, on March 4, 
2019, CMS issued a proposed rule 1A\1\ on Interoperability and Patient 
Access that is intended to move the health care market toward 
interoperability. This proposed rule was inspired by, and demonstrates 
our commitment to, the vision set out in the 21st Century Cures Act and 
Executive Order 13813 to improve access to and the quality of 
information that Americans need to make informed healthcare decisions, 
including data about health care prices and outcomes while attempting 
to minimize the burden associated with these changes to plans, health 
care providers and payers.
---------------------------------------------------------------------------
    \1\  Available at: https://www.Federalregister.gov/documents/2019/
03/04/2019-02200/medicare-and-medicaid-programs-patient-protection-and-
affordable-care-act-interoperability-and
---------------------------------------------------------------------------
    The proposed rule would enable patients to access their health 
information electronically by requiring the payers subject to this 
proposed rule to share health claims and other information 
electronically with their enrollees by 2020, much like CMS is already 
doing for Medicare beneficiaries through Blue Button 2.0. This empowers 
patients to take charge of and better manage their health care.

    The rule also facilitates data exchange for health care providers 
and suppliers, including doctors and hospitals, to have access to 
health information about their patients, regardless of where the 
patient may have previously received care. Our proposals aim to connect 
providers through data exchange and provider directories while 
preventing them from engaging in the act of information blocking, or 
inappropriately restricting the flow of information to other health 
care providers and payers. These proposals support interoperable 
practices that may reduce the burden on health care providers.

    CMS announced the rule concurrently with another proposed rule, 
issued by the Department of Health and Human Services' Office of the 
National Coordinator for Health Information Technology (ONC). ONC's 
proposed rule updates the standards for certified EHR by identifying 
certain activities that ONC has determined are reasonable and necessary 
and making those activities exceptions to the original statutory 
definition of information blocking. Inspired by the 21st Century Cures 
Act, and in collaboration with ONC, the proposals in the CMS 
Interoperability and Patient Access proposed rule drive 
interoperability to promote competition and improve patient care.
    Patient Access Through Application Programming Interfaces (APIs)
    A core policy principle underlying our proposals is that every 
American should be able, without special effort or advanced technical 
skills, to see, obtain, and use all electronically available 
information that is relevant to their health, care, and choices--of 
plans, providers, and specific treatment options. While many consumers 
today can often access their own health information through patient 
portals and proprietary applications made available by various 
providers and health plans, they typically must go through separate 
processes to obtain access to each system, and often need to manually 
aggregate information that is delivered in various, non-standardized 
formats.

    We are proposing to require that certain kinds of plans--Medicare 
Advantage plans, Medicaid fee-for-service and managed care plans, CHIP 
fee-for-service and managed care plans, and Qualified Health Plans on 
the Federal Exchange--maintain secure APIs that enrollees can use to 
access certain categories of their health data. This proposal would 
enable enrollees to use the application of their choice to access and 
use their own electronic health information. We hope that other payers 
might voluntarily offer this type of data accessibility so that even 
more patients across the American health care system can be empowered 
through easy access to their electronic health data.
    Health Information Exchange and Care Coordination Across Payers
    As patients move throughout the healthcare system, in particular 
from health plan to health plan, they should be able to maintain access 
to their health information. Our proposed rule would require health 
plans to support patients in coordinating their own care through plan-
to-plan health information exchange, electronic exchange of data as 
patients move between plans.

    This proposed policy also leverages interoperability to facilitate 
care coordination among plans to reduce unnecessary care, as well as 
ensure that health care providers are able to spend their time 
providing care rather than performing unnecessary administrative tasks. 
For instance, effective information exchange between plans could 
improve care coordination by reducing the need for health care 
providers to write unneeded letters of medical necessity; by reducing 
instances of inappropriate step therapy; and by reducing repeated 
utilization reviews, risk screenings or assessments.
          Care Coordination Through Trusted Exchange Networks
    We propose that Medicare Advantage organizations, Medicaid managed 
care plans, CHIP managed care entities, and issuers on the Federal 
Exchange be able to participate in a trusted exchange network, which 
would allow them to join any health information network they choose and 
be able to participate in nationwide exchange of data. Trusted exchange 
networks allow for broader interoperability beyond one health system or 
point-to-point connection by facilitating secure exchange of electronic 
health information without special effort on the part of the user.
            API Access to Published Provider Directory Data
    We believe access to provider directories and network information 
is critical for helping patients get the care they need. Health plan 
provider directories help patients find in-network providers and allow 
healthcare professionals to locate other providers for purposes of 
referrals, transitions of care, and care coordination. To ensure that 
patients and providers have easy access to provider directory 
information, we propose to require Medicare Advantage organizations, 
state Medicaid and CHIP programs, Medicaid managed care plans, and CHIP 
managed care entities to make standardized information about their 
provider networks available to enrollees and prospective enrollees 
through API technology, much like the Qualified Health Plans on the 
Federal Exchange.
                  Provider Digital Contact Information
    Provider contact information is critical to interoperability, care 
coordination and patient care. Last summer, to implement the 
requirements in the 21st Century Cures Act that required the Secretary 
to create a provider digital contact information index, CMS updated our 
online National Plan and Provider Enumeration System (NPPES) that 
maintains the National Provider Identifier (NPI) records for providers 
to collect this information and to allow providers to include one or 
more pieces of digital contact information that can be used to 
facilitate secure sharing of health information. Digital contact 
information, or electronic addresses for providers, allow them to 
exchange data faster and more efficiently while improving 
interoperability. Ultimately, we believe this technology could 
eliminate the need for fax machines in the clinical setting, but to 
make this technology effective, we need providers to make the most of 
it. To promote increased use of this provider digital contact 
information index, CMS is proposing to publicly report the names and 
National Provider Identifiers of those providers who have not added 
digital contact information to their entries in the NPPES system 
beginning in the second half of 2020.
                Public Reporting of Information Blocking
    The Medicare Access and CHIP Reauthorization Act of 2015 (MACRA) 
included a requirement that eligible clinicians and hospitals 
demonstrate that they have not knowingly and willfully taken action to 
limit or restrict the compatibility or interoperability of certified 
EHR technology. \2\ CMS implemented these policies through attestation 
requirements in our Promoting Interoperability Programs. \3\ We believe 
it would benefit the public, which includes patients and caregivers, to 
know if individual clinicians, hospitals, and critical access hospitals 
have submitted a ``no'' response to any of the three attestation 
statements regarding the prevention of information blocking. In our 
proposed rule, we propose including an indicator on the Physician 
Compare website for eligible clinicians participating in the Quality 
Payment Program, and to post information on a CMS website available to 
the public for eligible hospitals and critical access hospitals 
participating in the Medicare Promoting Interoperability Program, who 
submitted a ``no'' response to any of the three attestation statements 
regarding the prevention of information blocking.
---------------------------------------------------------------------------
    \2\  Section 106(b)(2)(A) of MACRA amended section 
1848(o)(2)(A)(ii) of the Act to require that an eligible professional 
must demonstrate that he or she has not knowingly and willfully taken 
action (such as to disable functionality) to limit or restrict the 
compatibility or interoperability of certified EHR technology, as part 
of being a meaningful EHR user. Section 106(b)(2)(B) of MACRA made 
corresponding amendments to section 1886(n)(3)(A)(ii) of the Act for 
eligible hospitals and, by extension, under section 1814(l)(3) of the 
Act for CAHs. Sections 106(b)(2)(A) and (B) of MACRA provide that the 
manner of this demonstration is to be through a process specified by 
the Secretary, such as the use of an attestation.
    \3\  To review our discussion of these requirements, see the CY 
2017 Quality Payment Program final rule (81 FR 77028 through 77035).
---------------------------------------------------------------------------
Revisions to the Conditions of Participation for Hospitals and Critical 
                            Access Hospitals
    We have helped to facilitate data sharing and notification 
capabilities through our policies on provider directory information, 
and we further promote this by proposing to require that hospitals send 
electronic patient event notifications to other providers treating a 
patient when the patient is admitted, discharged or transferred from 
the hospital. Clinical event notifications are widely recognized as an 
effective tool for improving care coordination across settings, 
especially for patients at admission, discharge, and transfer.

    We are proposing to revise the conditions of participation for 
hospitals and critical access hospitals to require that these entities 
send patient event notifications to other care providers or facilities 
that have an established care relationship with their patient. While 
deploying these notifications is low-cost and easy to achieve with any 
electronic health record system, many hospitals have not developed 
capabilities to send these notifications to other providers and 
facilities to whom they transition patients. We propose to limit this 
requirement to only those Medicare-and Medicaid-participating hospitals 
and CAHs that possess EHR systems with the technical capacity to 
generate information for electronic patient event notifications. This 
limitation will avoid burdening hospitals wishing to participate in the 
Medicare and Medicaid programs while still supporting efficient 
transitions of patient care whenever feasible.
  Request for Information: Advancing Interoperability Across the Care 
                               Continuum
    Transitions across care settings have been characterized as common, 
complicated, costly, and potentially hazardous for individuals with 
complex health needs. Yet despite the need for functionality to support 
better care coordination, discharge planning, and timely transfer of 
essential health information, interoperability by certain health care 
providers such as long-term and post-acute care, behavioral health, and 
home- and community-based services continues to lag behind acute care 
providers. We are soliciting comment on several potential strategies 
for advancing interoperability across care settings to inform future 
rulemaking activity in this area. We are seeking solutions to more 
broadly incentivize the adoption of interoperable health IT systems and 
use of interoperable data across settings, such as long-term and post-
acute care, behavioral health, and settings that serve individuals 
receiving home- and community-based services or who are dually eligible 
for Medicare and Medicaid.
            Advancing Interoperability in Innovative Models
    We believe that the Center for Medicare and Medicaid Innovation 
(``Innovation Center'') models offer a unique opportunity to engage 
with healthcare providers in innovative ways and test new concepts and 
are an important lever to advance interoperability. CMS plans to 
promote interoperability across the healthcare spectrum through model 
testing that focuses on using emerging standards, models leveraging 
non-traditional data, and technology-enabled patient engagement 
platforms. The Innovation Center is seeking public comment on promoting 
interoperability among model participants and other healthcare 
providers as part of the design and testing of innovative payment and 
service delivery models.
     Request for Information: Policies To Improve Patient Matching
    Finally, because patient identification is so critical to patient 
safety and information exchange, CMS is investigating ways to 
facilitate private sector work on a practical and scalable patient 
matching strategy. Together, CMS and ONC are requesting feedback on how 
we can leverage our respective authorities to improve patient 
identification, and thus patient safety, to encourage better 
coordination of care across different healthcare settings while 
advancing interoperability. We are also seeking comment on how we may 
leverage our program authority to provide support to those working to 
improve patient matching.
                       Promoting Interoperability
    Last year CMS announced an overhaul of the Medicare and Medicaid 
Electronic Health Record Incentive Programs (often known as the 
``meaningful use programs'') for hospitals after the Bipartisan Budget 
Act of 2018 increased our flexibility in implementing these programs. 
\4\ We renamed these programs the ``Promoting Interoperability 
Programs'' to promote interoperability, help to maintain a focus on 
patients and reduce burden. With these changes, hospitals and critical 
access hospitals are subject to a new performance-based scoring 
methodology with fewer measures beginning in 2019, which moves away 
from the threshold-based methodology that was in place. \5\ For 
clinicians, we changed the Merit-Based Incentive Payment System 
``Advancing Care Information'' category to the ``Promoting 
Interoperability'' category by generally aligning with the revised 
requirements for hospitals by moving clinicians to a single, smaller 
set of objectives and measures. \6\ We think these changes provide a 
less burdensome structure, allowing eligible hospitals, critical access 
hospitals, and clinicians to put their focus back on patients while 
still moving forward toward interoperability.
---------------------------------------------------------------------------
    \4\  Bipartisan Budget Act of 2018 (Pub. L. 115-123), Section 
50413, Reducing the Volume of Future EHR-Related Significant Hardship 
Requests, and section 51003, Technical Amendments to Public Law 114-10.
    \5\  83 FR 41150.
    \6\  83 FR 59785.
---------------------------------------------------------------------------
                             Moving Forward
    CMS is committed to creating a patient-centered health care system 
in which empowered patients have immediate access to their health 
information so they can better engage in and make decisions about their 
care. From our work with Blue Button 2.0 to the policies in the 
proposed rule, we want every stakeholder focused on the need for 
seamless data sharing so patients and providers can make decisions with 
complete, accurate sets of information and deliver the best health 
outcomes. Ultimately, we all need to work together to drive the 
seamless flow of information across the health care system. We are 
working toward a healthcare future when patients are able to obtain and 
share their health data securely and privately, with just a few clicks, 
and can ensure their care team is comprehensively informed of their 
specific care needs.
                                 ______
                                 
                  [summary statement of kate goodrich]
    At the Centers for Medicare & Medicaid Services (CMS), we are 
committed to advancing interoperability and improving access to health 
information for patients in the U.S. health care system. As evidenced 
by our ongoing work, as well as our proposed rule now out for public 
comment, CMS is taking an active approach to move the health care 
market toward interoperability and the secure and timely exchange of 
health information by proposing policies for the Medicare and Medicaid 
programs, the Children's Health Insurance Program (CHIP), and issuers 
of health plans sold on the Federal Exchange.

    Last year, the administration launched the MyHealthEData 
Initiative, which aims to break down the barriers that prevent patients 
from gaining electronic access to their health information from the 
device or application of their choice, empowering patients and taking a 
critical step toward interoperability and patient data exchange.

    In support of this goal, and in support of the MyHealthEData 
Initiative, last year, the CMS announced the launch of Blue Button 2.0, 
our first secure, standards-based Application Program Interface (API) 
that allows Medicare beneficiaries to access and share their health 
care claims data with applications and services that help them manage 
their health, in addition to sharing this information with their 
doctors and caregivers.

    Continuing to build on the MyHealthEData Initiative, on March 4, 
2019, CMS issued a proposed rule on Interoperability and Patient Access 
that is intended to move the health care market toward 
interoperability. The proposed rule would enable patients to access 
their health information electronically by requiring the payers subject 
to this proposed rule to share health claims and other information 
electronically with their enrollees by 2020, much like CMS is already 
doing for Medicare beneficiaries through Blue Button 2.0.

    A core policy principle underlying our proposals is that every 
American should be able, without special effort or advanced technical 
skills, to see, obtain, and use all electronically available 
information that is relevant to their health, care, and choices--of 
plans, providers, and specific treatment options. While many consumers 
today can often access their own health information through patient 
portals and proprietary applications made available by various 
providers and health plans, they typically must go through separate 
processes to obtain access to each system, and often need to manually 
aggregate information that is delivered in various, non-standardized 
formats.

    From our work with Blue Button 2.0 to the policies in the proposed 
rule, we want every stakeholder focused on the need for seamless data 
sharing so patients and providers can make decisions with complete, 
accurate sets of information and deliver the best health outcomes. 
Ultimately, we all need to work together to drive the seamless flow of 
information across the healthcare system. We are working toward a 
health care future when patients are able to obtain and share their 
health data securely and privately, with just a few clicks, and can 
ensure their care team is comprehensively informed of their specific 
care needs.
                                 ______
                                 
    The Chairman. Thank you, Dr. Goodrich. We will now go to 
five minute round of questions.
    During the 21st Century Cures, when we had six bipartisan 
hearings on electronic health care records, we formed a working 
group of interested Senators and I am going to discuss it with 
Senator Murray. We might do that again, and keep, for those 
Senators who are interested in this, every 90 days or so as Dr. 
Rucker and Dr. Goodrich come up, spend an hour with us, give us 
an update on whether they are running into unexpected things. 
We know you are going to run into unexpected things. We want to 
create an environment in which you can succeed. So that would 
be what we may ask you to do.
    I mentioned earlier that my music teacher, and I will just 
repeat that, who said play it a little slower than you can play 
it and you will make fewer mistakes, and hopefully we will 
learn lessons from Meaningful Use 3. I do not mind saying it 
was Vanderbilt University who was pretty far ahead in 
electronic records and they said Meaningful Use 1 was very 
helpful, 2 was Okay, 3 was terrifying, and I think it would 
have been better if we had taken time and work with doctors and 
hospitals and others and incorporated them into the process. 
But that is a lesson to learn.
    It is true as Dr. Goodrich said and Dr. Rucker said, if you 
go to many hospitals or doctor's offices today, you can obtain 
your own personal medical information very rapidly and in an 
easy way. Our goal is to make it as easy to get your medical 
information, your own medical information, than it is to make 
an Airline reservation, and in some cases, that is already the 
case at an institution. But if you want to go from one 
institution to another, as Dr. Goodrich said, basically you 
crawl down to the basement of some hospital, find your 
information, put it in a wheelbarrow, and take it over to the 
next place. So that is what we are talking about with 
interoperability.
    Let me take an example of what I mean by making sure we do 
not go too fast. We deliberately left it up to you, with your 
expertise, to make a judgment about how to do this practically, 
and you have said that you want to have most of this data in 
two years after this rule is final. The rule will be final 
toward the end of this year. So that leaves two years.
    Why not have a more phased approach for that? For example, 
starting with the U.S. Core Data for Interoperability and do 
that well within those first two years, and then take a second 
step. You had a common clinical data set that was set in 2015, 
and many people still have not been able to comply with that.
    Now you are having to update the data set and you are not 
only asking for that information, but you are asking for all of 
the other information within a two-year period of time. In 
other words, why not phase in starting with the U.S. Core Data 
for Interoperability, Dr. Goodrich?
    Dr. Goodrich. Certainly. So, we did propose in our proposed 
rule that plans make available an API to be able to make data 
accessible to third-party application developers as designated 
by a patient, January 1st of 2020. We also, and most of these 
data are administrative claims data, encounter data that 
already exist, but we do reference also the USCDI.
    The Chairman. But wait a minute, is it not true though that 
you get to do this kind of thing in 2015? You have set some 
standards and most providers and doctors haven't yet mastered 
that, is that correct?
    Dr. Goodrich. Are you referencing the 2015 edition of 
certified technology?
    The Chairman. Of the Common Clinical Data set. That has 
been out there for four years----
    Dr. Goodrich. Correct.
    The Chairman. Has everybody mastered that in that four year 
period of time? Or would that be for Dr. Rucker?
    Dr. Goodrich. I might defer to Dr. Rucker to answer that as 
well. I think we do require that clinicians and hospitals that 
participate in our programs use the edition of certified 
technology that contains that Core Data set. We have seen 
fairly good adoption, but I will if Dr. Rucker wants to add 
anything.
    The Chairman. Well, what does fairly good mean, Dr. Rucker? 
Have they all--is that in really good shape? Because they have 
had four years to do it and what you are proposing to do, would 
be an even greater gathering of information than that.
    Dr. Rucker. Right. So, the Common Clinical Data set 
includes things like problem lists, medications, allergies. The 
difference between the U.S. Core Data for Interoperability and 
the Common Data set is we are adding in clinical notes and 
some, what is called metadata, so people know who did the note.
    The Chairman. But I am running out of time. I guess my 
question is, if you could not get it--if four years wouldn't do 
it for what you tried to do in 2015, why do you think you can 
do it in two years all of this other data collection? Why not 
start with a more modest start like the U.S. Core Data for 
Interoperability?
    Dr. Rucker. Well, that is actually what we are doing. So, 
what we have, all the core technical provisions and the testing 
are really about the Core Data for Interoperability because 
that is the part that is computable. That is the part, once the 
final rule and then two years after, that is where the testing 
is and that is an increment over the 2015 rule, which for the 
first time is being required in 2019. We have evidence that the 
vast majority of providers both physicians and hospitals have 
access to that software today.
    The Chairman. Okay. Thank you.
    Senator Murray.
    Senator Murray. Thank you, Mr. Chairman. Dr. Rucker, as you 
know prohibiting information blocking was one of the 
Committee's top health IT priorities in the 21st Century Cures 
Act. We want to make sure the Department of Health and Human 
Services takes the time to implement the Cures the right way 
but if health or care organizations or technology vendors are 
hoarding data in order to gain a competitive advantage for 
themselves, there are real consequences for the health and 
safety of patients if the Department takes too long to 
implement these policies. What are the risks of delaying the 
prohibition on information blocking?
    Dr. Rucker. Well, I think the risks are, as you have 
outlined them, I think the main risk fundamentally is, to the 
extent that this is delayed or prevented, the American public 
is not in charge of their healthcare and they are paying more 
for their care, they are not getting as good a care as they 
could get, and fundamentally they are not in control of their 
care.
    With the information blocking rule to make that to follow 
the intent of Congress we have, in our proposed rule, have 
seven specific exceptions based on literally over a hundred 
stakeholder meetings were this almost invariably came up as a 
topic for discussion to narrow the scope and make that 
enforceable for the Office of the Inspector General and to 
provide clarity for the public. We think that they are very 
common sense types of things. The one area where there has to 
be sort of a definition, if you will, is on allowable costs.
    We have heard vendors are charging over $1 million to a 
start up to, just get that data that obviously stops innovation 
in its tracks. So, we have language allowing reasonable 
recovery of costs and profit but that it is not used as a 
strategy to prevent competitors from entering potentially 
reserved spaces.
    Senator Murray. Okay, thank you. Dr. Goodrich, as I talked 
about in my opening statement, Congress aimed to prevent 
information blocking in all its forms in the bill. We asked HHS 
to decide what the appropriate consequence for providers and 
hospitals that block flow of information should be. In the CMS 
rule, your agency proposes creating a public list of the 
physicians and hospitals that respond yes when they are asked 
if they participate in this behavior. What was the thought 
process behind a public list as the proposed mechanism of 
enforcement?
    Dr. Goodrich. Certainly. And I will first say that the 
Department is still considering other ways to address that 
particular provision of the 21st Century Cures Act. What this 
does in our proposed rule is it builds upon what we finalized 
through actually the MACRA legislation related to requiring 
that providers attest that they did not willfully or knowingly 
block the flow of information. That is part of the MIPS program 
as well as what hospitals have to do for the Promoting 
Interoperability program.
    What we are doing in the Proposed Interoperability rule is 
merely saying, for people who do not attest that they did not 
block information flow essentially, that we would make that 
list of hospitals or clinicians public, but we are still 
considering other mechanisms.
    Senator Murray. Okay. What if a provider says they don't 
information block, but they are found guilty of that conduct?
    Dr. Goodrich. Anytime that we have any concern about 
information blocking that we discover through any of our usual 
mechanisms, that is something that we would certainly refer to 
the OIG to look into as well.
    Senator Murray. Okay. And open APIs which allow for data 
exchange between products developed by different companies. 
They are an essential feature for an interoperable healthcare 
system and allow patients actually to get more control over 
their own healthcare data. Last year, CMS allowed beneficiaries 
and traditional Medicare to access their healthcare claims and 
information through an API, and I was glad to see in your 
proposed rule CMS is expanding that initiative to beneficiaries 
and programs like Medicare Advantage, Medicaid Managed Care, 
CHIP, marketplace plans. Talk to us why that is so important.
    Dr. Goodrich. Yes. We have--again a core principle that it 
is critical for patients to have access to their data. They 
currently do have access to their data through individual 
patient portals or their various doctors' offices or 
proprietary applications their providers may have. And what our 
proposed rule does is it intends to lower the burden on 
patients by requiring that plans who do business with CMS 
aggregate that information and make it a bit available through 
an API. We have seen a lot of interest in this technology and 
Medicare beneficiaries wanting to access their data through our 
Blue Button 2.0, and we really hope that health plans would 
take our lead and build upon that while maintaining the highest 
standards of privacy and security.
    Senator Murray. Okay. Thank you very much.
    The Chairman. Thank you, Senator Murray.
    Senator Braun.
    Senator Braun. Thank you, Chairman Alexander. I think it is 
interesting that we are here talking about stuff like this, and 
that I think back to the 38 years I have had a logistics and 
distribution business. I remember taking handwritten orders 
back in the early 80's and remember being on a RadioShack 
information system in the late 80's. I remember going on the 
Great Plains in the 90's, and all I can tell you is that most 
industries would not be having hearings because there is 
transparency, and there is competition, and there is embracing 
of technology. Hated to hear that within the medical sector, it 
is the only place where we see neutral to may be negative 
annual gains in productivity or the use of technology.
    I think it begs the question, what is wrong with the 
industry itself? And as a conservative, a Main Street 
entrepreneur, I lay the burden not here in the Senate, on the 
shoulders of the industry itself. I mean when you are cloaking 
and making things so difficult to get simple things like 
interoperability and when you are dealing with talking about 
blocking information, that is so far out of the mainstream of 
all other industries and I want the industry to hear what I 
have been preaching all along get with it or you are going to 
be changed radically with all kinds of approaches that are out 
there based upon frustration.
    We have got a dysfunctional industry that is not consumer 
driven. The consumer needs to be responsible. There is no other 
industry sector where the people that buy stuff are not engaged 
in it. It is due to the paternalistic evolution of healthcare. 
It has got the change. And we have got an industry that is full 
of smart individuals and big corporations that have figured out 
how to take advantage of it. That is why we are talking about 
some of the stuff, nudging through Committee hearings and 
possibly legislation. It is frustrating to me because it 
evolves naturally everywhere else.
    My question is, do you think there is any chance that among 
consumers of healthcare, through some of the efforts I see to 
make it more consumer-driven--I have done it in my own business 
and all I can tell you is when you embrace it, you cut costs 
and you got to change your behavior because you are doing 
things you are not used to but like we evolved from taking 
handwritten orders and having the most high-tech system in the 
logistics and distribution business, and that is why we do 
well, we embraced it. And an industry that obviously is 
dragging its feet, does not see the handwriting on the wall, do 
you think there is any chance that the consumers that use it, 
the industry that provide it, will get to where they need to be 
without our nudging legislation and Committee hearings? And I 
would like each to comment on that kind of broad topic a little 
bit.
    Dr. Goodrich. Thank you. I would say that at CMS, we feel 
as a core principle for everything that we do at CMS, that 
consumers need to be in driver's seat. And I would say that 
many of our policies, including what we have proposed through 
this interoperability rule, are intended to do exactly that, 
whether it be through fostering transparency, nudging providers 
because our jurisdiction is of course over providers, to ensure 
that data flows to the patient and it is shared with the 
patient in a usable format, and of course through our 
interoperability efforts. And that is what we have been doing 
very closely in partnership with ONC. So, I think we absolutely 
believe that a consumer-driven system is necessary.
    Dr. Rucker. The rule I think, the proposed rule absolutely 
puts healthcare I think into a competitive place. It has not 
been literally in 50 years. Modern technology, these RESTful 
Json, those computer science terms, those APIs have transformed 
business after business after business. Logistics would be a 
perfect example of that. We think that they are going to 
transform healthcare by bringing other parties and new parties 
into the game who are not incumbents, who are not part of the 
current sort of system of consolidated delivery system and 
raise provider guilds. It has opened up markets throughout the 
world in other industries. We are quite optimistic that this 
will do it in healthcare.
    Senator Braun. Thank you. And I would encourage the 
industry, publicly, to get with it because I think if I am not 
happy about the speed we are moving, and I respect the 
Chairman's advice to make sure we do not move too quickly. But 
it is a sad state of affairs that where we are at now and the 
industry needs to get with it because they is so much they know 
they could do to make it better. Thank you.
    The Chairman. Thank you, Senator Braun.
    Senator Kaine.
    Senator Kaine. Thank you to the witnesses. Important topic. 
My staff members suggested that I read an Atul Gawande's New 
Yorker piece from November on ``Why Doctors Hate Their 
Computers,'' and what a great article. It is hard to really 
summarize it because there is a lot of nuances to it but two 
observations from the article were that the increasing use of 
EHRs and computers generally may be increasing job 
dissatisfaction among physicians, but it is also giving 
patients all kinds of access to the notes of their meetings and 
tests results and ability to schedule appointments that they 
did not have before. I am just curious as to your reaction to 
that piece and whether in proposing this rule you are trying 
to, figure out a way to make the advance of EHR continue to be 
a great thing for patients but also let more of a value add and 
a pleasurable value add for physicians.
    Dr. Goodrich. Certainly, yes. This is a topic that I 
personally care deeply about as a practicing physician. I have 
been around long enough to have practiced when I had, 
handwritten notes and then transitioning into a variety of 
different EMR systems over time. And I would say there is no 
question that the implementation of EMRs in many ways has 
actually been a positive improvement. Now nurses do not have to 
read my chicken scratch to take an order off. The computerized 
provider order entry has, I think really made some significant 
gains in improving patients' safety but there are real concerns 
that still remain that were highlighted in Dr. Gawande's 
article. We have done a number of things at CMS to try to 
address that related to what was passed in 21st Century Cures 
but also related to, for example, reducing the burden of 
documentation, which is a big pain point for clinicians.
    In our physician fee schedule rule last year, we sort of 
overhauled the requirements related to documentation and we 
intend to further build those out through rule-making this 
year. That will make using EMRs easier. That is so much an EMR 
specific issue, but it is manifested through the EMR. So, there 
are things like that we are continuing to explore. The patient 
access issue to data though is critical. I take care of my 
mother's Medicare beneficiary and her having access to her 
information has been transformative.
    Senator Kaine. Dr. Rucker, do you want to add anything to 
that?
    Dr. Rucker. Yes. I think the article makes a number of good 
points. I think the challenge is we have bundled all kinds of 
payment and policy things into the EMR. It is a lot easier for 
somebody to put that, oh, let the EMR sort it out so the EMR 
becomes a little bit of a waste basket for various things. 
Jointly with CMS under Cures, a physician-provider burden 
report was required. We have a draft out of that, and we have 
identified, in addition to the documentation that Kate 
mentioned another area, is prior authorization, a vast time 
sink for people, and so we are doing early work to try to 
figure out how to make that actually electronic. Right again, 
this is logistics, if you will, in healthcare as a lot of 
transaction cause opacity and delay.
    I think there are things--I went into this business to 
actually automate things. It is a source of personal 
embarrassment that after thirty odd years in the field that 
computers generate more work for me when I practice than 
anything else. I would not have guessed it if you had asked me 
in 1988, when I graduated from Computer Science school after 
residency, what was going to happen, but we have a lot of 
incentives that are maybe not in the right place.
    Senator Kaine. Let me move to a particular area. Health IT 
has a great potential to improve treatment pain management, 
especially help us deal with addiction issues. Everybody on 
this Committee has been very focused on opioid and other 
addictions. But IT can help us prevent prescription shopping, 
reduce inappropriate prescriptions, and facilitating 
interdisciplinary care. And the ONC proposed rule discusses 
these important issues and acknowledges the importance of 
patient privacy. Talk a little bit about the promise that 
increased standardization might offer to us as we are grappling 
continually with addiction issues, especially with respect to 
opioids.
    Dr. Rucker. Yes. I mean, the various state PDMPs which are 
now pretty much universal throughout the United States, have 
been very helpful. As an ER doc believe me, I have had every 
story of shopping for opioids in 30 years pitched at me, I 
think. So, I mean I have lived this for decades and decades, 
the challenges of these group of patients. So, the PDMPs, I 
think, are good for what they do.
    I think each state has a different approach to this. This 
makes it very complicated on a National basis to do this. It 
makes integration into workflows. You just talked about burden 
in the Atul Gawande article, and obviously having every state 
have different implementation is a type of impediment that I 
think we want to think about as we move forward and really 
harness the true power of this.
    Also, we want to look at some of the surround, such as 
health information exchanges, that can help these patients, in 
a more positive way rather than--it is one thing to say, do not 
give somebody opioids but when you look at mental health and 
behavioral health, we also have great opportunities in 
computerization to help the patients. So, we want to look at 
both sides of them.
    Senator Kaine. Great. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Kaine.
    Dr. Cassidy.
    Senator Cassidy. Thank you all for being here. I often take 
the position as a physician but today I will take the position 
of the patient. Are apps going to be covered entities?
    Dr. Rucker. Apps will not be covered entities unless they 
are part of a covered entity or business associate. Unless they 
are currently part. So, for example, if a provider----
    Senator Cassidy. I get that. I just have a limited time. 
Can they resell the data?
    Dr. Rucker. That, at the moment, is a contractual thing to 
be negotiated between the patient and the app----
    Senator Cassidy. No that is not, again I----
    Dr. Rucker. Subject to Federal Trade Commission----
    Senator Cassidy. I do not mean to be rude, we have just got 
limited time--he is going to wrap on me. And so, if I read down 
it says, will you agree, after ten-page legalese. I mean I 
realize that I have just given permission to an app to combine 
my data with location data and, or to resale it to Facebook--
God knows what happens then. So is there any protection for the 
patient from, because she is not going to, he is not going to 
do that. I do not do it until finally now I do it. And now I do 
not sign up for stuff. What do we do to protect that patient 
from legalese dulling their mind to the fact that they just 
gave away their family history?
    Dr. Rucker. I think you raise a very real and major issue 
here. And this is true of every app and everything on our 
smartphone, right. I mean the data about us is constant. Every 
browser you use uniquely identifies you on the entire planet as 
we speak today. Under the rule, the OUF-2 provides security. 
That is the authentication. So, the patient has to make a very 
conscious decision to download the data to the app. That offers 
an opportunity certainly for providers to give those warnings. 
Once it is under the HIPAA right of access, then the broader 
legal protections, we have a model consent notice that we 
suggest using, but I think it is still an open area.
    Senator Cassidy. Perhaps something for us to consider, what 
would we require of the app in order to protect the patient. 
Next, we are docs. You take a family history. It is not just 
doctor and Mr. Braun whom I am taking history on, but I 
actually end up knowing whether his mama had diabetes. You see 
where I am going with that. Whether the brother had--I don't 
know anything about him by the way. I could go into all sorts 
of terrible things.
    [Laughter.]
    Senator Cassidy. When I give my permission for that medical 
record to be downloaded, I am not sure patients understand how 
much I have just gotten, even before talking about genetic 
data, about somebody's family history. Do we have protections 
on that, number one, and number two, can I say I want you to 
download everything but not my medical--but not my family 
history?
    Dr. Rucker. That is a major problem. I have seen all of the 
DNA sites, all the DNA testing sites. That is extremely 
specific and extremely broad. The privacy issue you ranged 
right now, there is some data segmentation for privacy 
opportunities. We are optimistic that the market will provide 
clarity here the same way that consumer branding helps with 
things like banking, right. We do not just put our money 
anywhere, we go to brands. We hope that a consumer economy will 
drive this with trusted brands but at the moment the 
prohibitions against secondary use of data are exactly as you 
describe.
    Senator Cassidy. Yes, that is I think we need to consider 
that, because this is going to be a mess. And some people get a 
loan charge right? So not everybody will have the kind of 
ability to sort out.
    Dr. Rucker. The one caveat I would put for you on that is, 
right now you can infer health data from many non-health 
records, right. You can infer from location of a clinic. You 
can infer it from your credit card statements. You can infer 
very specific health data from a lot of things. So, I think as 
Congress thinks about secondary use of data, it really should 
be a fairly broad consideration of that.
    Senator Cassidy. Let me flip back to being a physician or 
being an EHR vendor. If somebody requests--I got 10 data 
elements including the family history and maybe including HIV 
status. And I want to share all of this, but I do not want to 
share my HIV status or my family history. I think that is going 
to--I am assuming that is going to cost me, the provider, to 
figure out how to send some but not all. Am I going to be 
busted if I send too much or am I going to be busted if say, do 
see where I am going with that? How is that going to be handled 
and what would be the penalties if my EHR does not allow me to 
do it, but I am a doc and I have been requested to not give the 
family history?
    Dr. Rucker. That is a significant challenge with data 
segmentation for privacy. It is a brittle technology from a 
computer science point of view. We have in our information 
blocking provisions, provisions around what can actually be 
computed, so there is a protection in there for the physicians 
with those clauses.
    Senator Cassidy. The physician would not be busted for 
either not giving enough or giving too little if the EHR is 
inadequate? Does the EHR get busted?
    Dr. Rucker. Well, I think it is a joint challenge for both 
the physician and for the EHR, and we believe in the 
information blocking provisions that are up for public comment 
now, that we have provisions there to help that. But as it is a 
deeply complicated technical issue because of the way it 
impacts the architecture of every data base field.
    Senator Cassidy. I thank the Chairman and the Ranking 
Member, and I look forward to those further hearings. And we 
will have some more QFRs, questions for the record.
    Thank you.
    The Chairman. Thank you, Senator Cassidy. I think a good 
subject for an early working group discussion would be, what 
are the rules and who is in charge when a patient gives his or 
her information to third party.
    Senator Baldwin.
    Senator Baldwin. Thank you, and I want to thank the 
Chairman and Ranking Member for our continuing work on 
implementation of the 21st Century Cures Act. I want to thank 
both Dr. Rucker and Dr. Goodrich for your hard work to advance 
this law with the recent proposed rules. The proposed rule from 
ONC seeks to improve electronic health record quality by 
allowing providers or patient safety organizations to share 
screenshots for usability or safety reviews. I believe that 
certainly basic transparency is essential to improving data 
exchange on the quality and safety of patient care. However, 
these screens do demonstrate how information is organized 
within an electronic health record system, which could open up 
opportunities for bad actors.
    We have to figure out a way to guarantee that the effort to 
improve safety and usability also protects information that 
could be used to reverse engineer the system, reverse-engineer 
the software or create malware frankly that could cause harm. 
So, Dr. Rucker how do we strike that balance of permitting, if 
necessary, screen sharing for legitimate purposes while also 
protecting the IP, the Innovation, and the cyber security in 
this arena?
    Dr. Rucker. In the 21st Century Cures Act, there is a list 
of very specific allowed uses of those screenshots that I think 
goes back to a history of complaints about ``gag'' clauses. So, 
in our proposed rule we enumerate through the specific list 
that is in 21st Century Cures and do not allow sort of other 
broader uses and actually call out the requirement to respect 
intellectual property. So, if you are not using it for those 
specific purposes, those are copyrighted, trade-mark owned 
screens by the software developers.
    You have to have a very specific purpose in mind to do 
that, and broad reengineering of product as it has happened, as 
would not be allowed under those provisions. The cyber security 
we hope to have taken care of in large with some of the APIs by 
using industry-standard, cyber security thing so that we are 
not coming up with healthcare specific one-offs but actually 
using the broad industry thing that would be used by any 
industry protecting valuable information.
    Senator Baldwin. I may have some follow-up on that. I want 
to second move to an area explored by our Chairman in his 
questioning relating to moving from the 2015 U.S. Core Data for 
Interoperability to what appears to be a larger collection of 
information EHI, electronic health information. The Chairman 
was asking about where various health systems are with regard 
to the 2015 U.S. Court Data for Interoperability and then the 
impact of adding additional information.
    My question for you Dr. Rucker is how do you reconcile the 
ongoing industry work that is being done on this U.S. Core Data 
set with these new requirements to comply with more expansive 
standard for exporting EHI and if you could give a little bit 
more descriptive information on what is a part of the expanded 
EHI versus what was a part of the Core. And then, as you work 
to finalize a rule that requires compliance with these 
additional standards, how do you make sure that it is 
manageable for interoperability?
    Dr. Rucker. Yes. So, the U.S. Core Data for 
Interoperability again, the change from the prior common 
clinical data set is in getting the notes to patients and 
identifying better who actually generated the note, which 
believe it or not is sometimes very hard to know who put the 
note into the chart as this gets to the Gawande type of issue. 
There is a provision in Cures for all data download and that 
provision was placed because I believe Congress heard 
complaints that when folks switch from one EHR to another, 
their data is locked into the old EHR and can't get to the new 
one.
    There are no current extant standards to allow that data to 
be transmitted in any, I believe, really fundamentally usable 
format as structured data, so the rules says other than just 
giving the dictionary name of the term, it is just a simple 
download without structure. It can be done idiosyncratically to 
every system because there is no broader way of doing that.
    That data, I think, will be very challenging to put into a 
new system. I am guessing the folks who might be able to use 
that are people who are using machine learning and natural 
language processing to get at that data but that is a simple 
right and does not have an enforceable data structure unlike 
the U.S. Core Data for Interoperability. That is a very nuanced 
technical issue but hopefully I have explained it. And it is a 
complicated history.
    The Chairman. Well that clears that up.
    [Laughter.]
    The Chairman. Thank you, Senator Baldwin.
    Senator Burr.
    Senator Burr. Thank you, Mr. Chairman. Dr. Rucker, Dr. 
Goodrich thank you for being here. In 2016 my question to a 
panel like this was how the hell you going to do this. I think 
what you have heard is different variations of that going 
around the room, difference is we are in 2019 and this is a 
discussion that we started in 2013 about how do we get systems 
to talk to other systems. 2015, there was a rule and one of you 
said today, in 2019 the rule is being required.
    Here is my problem, over the 2013 to 2019 timeframe, Dr. 
Rucker, you know better than I do that technology innovation 
has exploded. It runs at an unbelievable pace, and here we are 
trying to set standards and set architecture of software, what 
technology can offer us whether it is a doctor's office, a 
hospitals, a provider that 12 months from now is going to be 
obsolete because that is how fast technology is changing. A 
good provider is going to constantly upgrade their technology 
to match the capabilities, not all, and there becomes the 
horror stories. That is not even getting into with Dr. Cassidy 
is talking about which is data control.
    Here is my question as it relates to apps. Are the apps 
that you are talking about, are they holistic apps or do they 
target on one disease, I have got diabetes, I have got an app 
to help me manage my diabetes. Two, is there a holistic app, 
one that manages my health care based upon all the data that 
goes into it? And Dr. Goodrich, a third piece of that would be 
has CMS looked through, my understanding then and now is 
Meaningful Use, can you create an incentive for somebody to 
utilize this. Have we looked at an incentive for that third-
party entity to create a platform that can manage an 
individual's health care?
    I think one of the problems that I keep running up against 
is, I think the answer to the question I was asking, if 
Government can get the hell out of the way, we will find a 
solution to this. I think that gets to what Senator Braun said. 
I think the private sector, the private sector sees a problem 
and funds a solution to do it. Their business model makes some 
change based upon technology.
    Our problem is that we can't get rules through when the 
technology that we are applying it to is in existence, and by 
the time we get a rule through, technology has changed, it may 
or may not apply. So, I know I have thrown a lot at you. I will 
get both of you to comment on it.
    Dr. Rucker. Yes. So, I think--so, I have been in the 
computer science business for 30 years and I have seen these 
things. I think for the first time we have API technology that 
is pretty technically stable and broadly doable. That was not 
the case in prior versions. Again, a long history there. So, 
this is what is fueling the app economy broadly. Right now, to 
your point, medical data is not accessible to most health apps, 
to several hundred thousand apps out there who have not, 
believe it or not, no access to medical data.
    The entire point of what we are doing jointly is to allow 
these apps in the market economy to incorporate the patient's 
medical data into that. Some of them will incorporate a 
holistic view. There are companies, Apple most notably largely, 
there are small startups, my PatientLink, Humetrix, that are 
taking a broad view. There are going to be other companies that 
are going to be very disease-specific and focus on potentially 
life-threatening or lethal diseases.
    In an app economy, we see both of those happening and that 
is the way we are designing it. We also have a number of 
provisions to try to have standards evolve. All of the 
standards we use actually are from the private sector so ONC is 
not generating any standards whatsoever in this and we actually 
maintain and curate the current private sector standards on an 
ongoing basis. And we work a lot and we actually, some of our 
budget, we actually used to fund key parts of the standards 
organization to do this and to have the broadest public input 
into the development of these standards.
    Dr. Goodrich. Just quickly, I would absolutely agree with 
Don that the timing is really right for this because of where 
the state of play is with the standards, and I think it is a 
good time to sort of take advantage of that and move the field 
forward. You asked about the types of applications. I can tell 
you through our Blue Button 2.0 experience, we now have 1,800 
developers who are working in our sandbox which has synthetic 
data to develop apps and we have twenty that are actually out 
in production that Medicare beneficiaries are currently using. 
And they kind of run the gamut, so everything from essentially 
a personal health record and app that can function as a 
personal health record for a Medicare beneficiary, to apps that 
help beneficiaries find health plans or get them connected to 
research studies, and as well as disease-specific apps.
    It really does run the gamut and we have 7,000 Medicare 
beneficiaries using these right now and have gotten very, very 
positive feedback.
    Senator Burr. Well, let me--if the Chairman will give me 30 
more seconds to editorialize. Let me thank you for the work 
that you have done. I am probably no less convinced that we are 
going to get to the finish line today than I was in 2016, 
though the tools that we have are much better. I saw providers, 
insurers when they wanted to have a different outcome on 
diabetes, they took the responsibility, internally with their 
patients, their covered lives, to drastically change what they 
provided to them.
    It seems to me that is the most appropriate first place to 
go is to create an incentive for the providers, those 
individuals that are covered in lives, to do a holistic 
approach to not just diabetes or a particular disease but to 
manage their health care. And it is to their financial benefit 
to do that and they are the ones that can certify the benefits 
to the patients' overall health condition.
    I want to ask you to clarify what you said but Dr. Rucker I 
just wrote down a comment that you said, we have a lot of 
incentives that are in the wrong places. Now, if I understood 
it the way you said, for God's sakes, will you guys share with 
us where it takes a legislative remedy to move the incentives 
to the appropriate place? It is no longer good enough to have 
them but have them in the wrong place where they cannot be 
fully utilized. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Burr.
    Senator Rosen.
    Senator Rosen. Thank you. Well as a former software 
developer and systems analyst, my head is spinning. I have some 
questions I want to get to but what I want to say is this, is 
absolutely nothing is more important or is more private or 
precious than your personal medical data and history. Its 
accuracy, its privacy and security must be part of any design, 
and the monetization of your personal data may be not in your 
best interest.
    We have to be careful when we allow apps to design what 
helps you or helps your family and what might hurt you through 
the monetization or data brokerage. There are many things the 
private sector can do that are so fantastic and there are also 
ways that they can take this most private and precious 
information and use it against you. So, what you are doing in 
taking this approach is very important. But what I really 
wanted to talk about today is a little bit about administrative 
costs in your implementation timeline. And so, we know that we 
have to improve our interoperability standards.
    Maybe we have to create some--you talk about the data sets 
to cannot be parsed. There are ways to fix that and that is for 
a different conversation, but it is really important that 
providers do have a complete and accurate background on their 
patients. And so, we have to be careful though and consider the 
full picture of the resulting administrative costs and the 
practicality of the implementation, and what the benefits are, 
how to mitigate the challenges.
    Does the ability for the patients to access records, 
schedule appointments, and contact their medical providers save 
time and costs overall for physicians, medical office 
personnel, and patients? Do you have data supporting how that 
is helping when they are integrated and how you think they can 
move to it in a particular way?
    Dr. Rucker. We think that making all of this be with 
relatively straightforward application programming interfaces 
actually takes the burden off providers, right. The burden at 
that point is to provide a secure end-point, right, rather than 
having ongoing conversations, right. This is self-service, 
right. It is literally like buying the airline ticket, right. 
You do not need a gate agent to buy your ticket online, right. 
So, we think that is very fundamental.
    Totally agree with the privacy issues that we have 
discussed but we do think that the application programming 
interfaces will allow that to simplify. Most, we have 
calculated that roughly 80 percent of American providers, their 
EHR vendors already have these, what are called FHIR healthcare 
interoperability interfaces up and running. Apple's version, 
which uses the design standards that ONC has funded over the 
years with the standards group, I believe has over a thousand, 
several thousand providers who are on it as we speak.
    Senator Rosen. It seems as if people are moving toward it. 
It is helping the independent practice and our practices become 
more integrated, but I do have a concern on the other hand, 
that we must always be mindful about people who have barriers 
to accessing their health information be it due to a lack of 
internet access, technology, a disability, a disease. I talk 
about my beloved father-in-law, his birthday, his 97th birthday 
would have been this week, and he was a civil engineer for 50 
years. Beautiful handwriting and drew bridges and all these 
wonderful things, and when he got in his 80's, he had a tremor 
and he couldn't see, and he could not use a computer.
    His brain was fine, but he did not have the skills to do 
that anymore. So, in your long-term planning, what are you 
doing to help people who either do not have internet access, a 
computer, physical barriers, emotional, mental, whatever those 
are, dementia, etc. and may not have an advocate for them to be 
on the computer. So, what are you doing to help those folks?
    Dr. Rucker. Well we think that having industry standard 
APIs will lead to the broader democratization of access here. 
It is very interesting that in countries like India, 
smartphones, right, are very--countries with vast limitations 
in resources, they are actually using a smartphone technology 
first.
    Senator Rosen. Would that have helped--your Medicare 
population is an older population.
    Dr. Rucker. Obviously, for some disabilities unfortunately 
the nature of the illness is that it is just part of the 
illness, but we think in general the affordability and the 
markets making access easier. There are all kinds of assistive 
devices built into modern smartphones. Are probably going to be 
better than trying to get on a bus or a cab or ride-sharing 
service to go to the hospital and try to dig out your patient 
record, which is the current.
    Senator Rosen. Thank you. I appreciate it. I yield back my 
time. Thank you.
    The Chairman. Thank you, Senator Rosen.
    Senator Romney.
    Senator Romney. Thank you, Mr. Chairman and Ranking Member 
for having this hearing and I appreciate also Dr. Rucker and 
Dr. Goodrich for your testimony and the work that you are 
doing. I would like--Senator Burr, I am somewhat skeptical and 
have been somewhat skeptical but am more optimistic in 
listening to you today. Skeptical in part because it struck me 
that when Congress said, interoperability is a good thing, make 
it so, it would be like saying to the Department of Energy, we 
got to reduce greenhouse gas emissions, please do so. It is 
like, well, how do you go about doing that? How big of a task 
is that?
    My background is in the private sector. I have seen 
settings were two companies will come together, they had 
different computer systems, and they wanted to make them talk 
to each other and share data across the systems. It usually 
takes years for that to happen, and even within two relatively 
small companies, relative to the Government of the United 
States, it takes hundreds of millions of dollars. So, the idea 
of achieving interoperability through Government oversight 
would be massively expensive, if not impossible, and would take 
a long period of time.
    I am drawn to the comments of the Chairman which is should 
we do this out of phase basis. Senator Burr suggested perhaps 
let the private sector deal with this over a longer period of 
time, but you seem to have optimism that we can make progress 
here. And I wonder exactly whether that is conceivable for us 
to achieve standards that will allow systems to talk to each 
other from one hospital system, for instance, to another 
provider or whether that is frankly a bridge too far at this 
stage.
    I participated in the healthcare system called 
Intermountain. It includes physicians in the group. It includes 
the hospitals and so forth. It is interoperable. It works 
extremely well, but to get it to communicate with let us say a 
system in Detroit, would strike me as being a very intensive, 
long-term process. Are we barking up the wrong tree here? Do we 
have a shot of actually making this work? Should we make it a 
more phase process? Is it a pitch too far? I am using a lot of 
metaphors here. I am just suggesting how distant the goal may 
be, but I am interested in your thoughts about whether we need 
to rethink how we approach this goal of interoperability. 
Whether we should, if you will, begin by restricting our sites 
a little bit and by looking within current healthcare systems 
as opposed to trying to reaching across systems across the 
country and across different types of practices, and whether 
instead we should move on a more, I guess standard-oriented 
process as opposed to implementation process.
    Interested in both of your comments in that regard.
    Dr. Rucker. Yes, there is plenty of room for skepticism. 
So, I started my computer science career building an EMR in 
Windows 2.1, right. So, if anybody remembers what a serial port 
is. So, the thought of sharing data was totally in the future. 
The internet did not actually, I think, the first stack didn't 
come until Windows '95. There are now hundreds of thousands of 
apps out there, hundreds of thousands, using the RESTful Json 
and the internet stacked share information. So, we know broadly 
in the economy, this is absolutely doable. It is done, more 
times than you can count in, many, many apps today.
    The healthcare part is customizing this to healthcare so 
the fast healthcare interoperability resource, which is 
ultimately vocabulary exercise, there has been very rapid 
progress on this FHIR protocol. ONC has supported that. CMS has 
supported that. That gives, I think, us vast grounds for 
optimism that we did not have the HL7 version 2 and its various 
iterations and parts of version 3. So, I think the technology 
has fundamentally changed and so we are moving. The U.S. Core 
Data for Interoperability is a very limited set of data and I 
know it is sometimes portrayed as an expansive set of data but 
is actually a very limited set of data that we are starting out 
with.
    Dr. Goodrich. I would agree with everything Don has said, 
and I will also reiterate that we have seen significant changes 
over time. I mean, I started practicing medicine in the late 
1990's, did not have an EMR, and increasingly, incrementally I 
have seen the ability to get more and more information from 
systems outside of my own, not necessarily complete information 
but I can get information through my regional healthcare 
exchange, is a great example of that.
    I think based upon what Don said related to the standards 
plus the health information exchanges that we are seeing around 
the country where you are seeing the opening up of exchange 
even in distant places. There is reason for optimism. I do 
think the 21st Century Cures also is sort of a transformative 
moment to be able to move forward in a way that we just haven't 
been able to before. So yes, plenty of room for skepticism but 
also more optimism than probably any of us would have had a 
couple of years ago.
    Senator Romney. Thank you.
    The Chairman. Thank you, Senator Romney.
    Senator Murray, do you have any further comments?
    Senator Murray. I do not at the time. I want to thank both 
of you. This is extremely complex and obviously we have seen a 
lot of good things happen as a result of technology for patient 
health. We have a lot challenges in front of us, whether it is 
interoperability, blocking information gag clause, and we have 
to talk about the developing issues that we are facing in the 
ever-changing world of cyber security, and privacy, and data 
stewardship. So, I look forward to continuing to work with you, 
Mr. Chairman.
    The Chairman. Thank you, Senator Murray. One thing that 
occurs to me, is reassuring to me is to hear again how 
important the 21st Century Cures Act has become in so many 
different ways, and I think the Senators on this Committee and 
staff should take a good deal of pride in that. And this is one 
area for that. We did find before that sometimes having working 
groups that would meet maybe every 90 days with an agenda, the 
staff could let you know what the Senators are interested in, 
Senators can come if they wished, and it would give us a way to 
continue to keep up with you, to give you our suggestions, to 
decide if we need to make any further legislative adjustments. 
And really to create an environment in which you can succeed 
which is what we want to do.
    The issues, I hope you will keep in mind from this, are the 
concern I have and others have balanced by what Senator Murray 
said about, there is a need, we need to get on with information 
blocking for the benefit of people but it is more important 
that we end up where we want to go, not that we try to get 
there faster than we can go. And so, taking lessons from 
Meaningful Use 3 and just the general laws of human nature as 
expressed by Senator Romney there, I think we would be wise to 
keep our eyes open as we go along. And the other reason for 
that, of course, is to work with providers, doctors, hospitals, 
nurse practitioners or others, incorporate them into this so 
they can buy into it and absorb it and make suggestions about 
it.
    There is concern about the what happens, who makes the 
rules, and who is in charge when a patient gives information, 
personal information to a third party. We need to talk more 
about that. We were careful in the 21st Century Cures Act not 
to be too prescriptive, wanting to leave with you many 
decisions about how to go ahead, and I was hopeful that you 
would not be too prescriptive, figuring that the reason we can 
make airline flights on our phone is not because the Government 
figured it out, but because we left room for somebody the 
private sector to figure it out. And that is beginning to 
happen. And as you solve problems, continuing to leave room for 
the private sector to solve them for us, is a part of the art 
of Government that I hope you continue to use.
    Then finally, the physician burden and the burden on 
providers is something I hope we keep in mind. I mean the whole 
idea of this is to make it easier and less expensive not more 
complicated and more expensive. And you have talked about your 
own 30 years of experience with computers creating work and I 
think about the effect of that. I was in South Dakota on Friday 
and talking about how in rural areas, the electronic health 
records and other requirements make it very difficult for a 
smaller rural hospital to manage that, so it is easier for them 
just to sell out to a big outfit, and that encourages 
consolidation. And then we have the larger question of whether 
consolidation of doctors and hospitals, all working for some 
big outfit, increases competition and increases costs, or 
simplifies things and lowers costs.
    Keeping in mind ways to actually reduce the burden on 
physicians, especially, is an important part of this. The 
hearing record will remain open for 10 days. Members may submit 
additional information for the record within that time if they 
would like.
    The Chairman. Thank you for being here. It has been a very 
useful hearing. Thank you for your work on behalf of the 
country, and the Committee will stand adjourned.
    [Whereupon, at 11:28 a.m., the hearing was adjourned.]

                                  [all]
</pre></body></html>
